                        U.S. Department of Agriculture

                           Office of Inspector General
                                     Southeast Region




             Audit Report

Hazard Analysis and Critical Control Point
  Implementation at Very Small Plants




                               Report No. 24601-5-AT
                                           June 2005
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington, D.C. 20250




June 24, 2005




TO:             Barbara Masters
                Acting Administrator
                Food Safety and Inspection Service

ATTN:           Ronald F. Hicks
                Assistant Administrator
                Office of Program Evaluation, Enforcement and Review

FROM:           Robert W. Young /S/
                Assistant Inspector General
                 for Audit

SUBJECT:        HACCP – Implementation at Very Small Plants (24601-5-At)


This report presents the results of our review of the Food Safety Inspection Service’s (FSIS)
Hazard Analysis and Critical Control Point (HACCP) Implementation at Very Small Plants.
Your June 1, 2005, written response to the official draft report is included in its entirety (except
for the enclosures) as exhibit D with excerpts and the OIG position incorporated into the
Findings and Recommendations section of the report, where applicable.

We accept the management decisions for Recommendations 1, 2, 4, 6, 7, 10, 11, 12, and
13. Management decisions have not been accepted for Recommendations 3, 5, 8, 9, and
14. Please follow your agency’s internal procedures in forwarding documentation for final
action to the Office of the Chief Financial Officer.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned and the timeframes for implementation of
those recommendations for which management decisions have not yet been reached. Please note
that the regulation requires that management decisions be reached on all recommendations
within a maximum of 6 months from report issuance.

We appreciate the cooperation and assistance provided to our staff during the audit.
Executive Summary
Hazard Analysis and Critical Control Point Implementation for Very Small Plants
(Audit Report No. 24601-5-AT)

Results in Brief                 This report presents the results of our audit of the Hazard Analysis and
                                 Critical Control Point (HACCP) system at very small plants, 1 administered
                                 by the U.S. Department of Agriculture’s Food Safety and Inspection Service
                                 (FSIS). FSIS implemented the final rule on HACCP systems effective
                                 January 25, 2000, at approximately 3,400 very small federally inspected
                                 plants. The purpose of our audit was to evaluate FSIS’ implementation of the
                                 HACCP program at very small plants and to determine whether the program
                                 was effective in ensuring the wholesomeness of the meat and poultry sold to
                                 consumers.

                                 We found that FSIS timely implemented HACCP systems at very small
                                 plants; however, the systems need improvement to ensure the wholesomeness
                                 of the meat and poultry produced for consumers. We continued to find a
                                 number of deficiencies that need correction before FSIS can consider the
                                 HACCP implementation at very small plants to be in total compliance. We
                                 concluded that management controls for monitoring both plant operations and
                                 inspectors’ performance need improvement to further reduce the number of
                                 deficiencies. Although food safety assessments (FSA) performed by
                                 consumer safety officers (CSO) were useful in identifying and correcting
                                 many plant HACCP, Sanitation Standard Operating Procedures (SSOP) and
                                 pathogen reduction deficiencies, further improvements in this process are
                                 also needed. We found that the national office had not developed written
                                 criteria regarding how districts should select plants to receive FSA’s, did not
                                 readily know which plants had received one, or how many complete FSA’s
                                 had been performed to ensure that coverage was adequate and in the most
                                 needy plants. More importantly, plant deficiencies noted in FSA’s were not
                                 linked to FSIS In-Plant Performance System (IPPS) reviews to determine
                                 which inspectors had not noted many of the HACCP, SSOP or pathogen
                                 reduction noncompliances that CSO’s found, and why.

                                 We reviewed 36 HACCP plans at 15 plants (see exhibit B) and found
                                 HACCP plan deficiencies at 9 of these plants. This is an improvement since
                                 our prior audit 2 reported HACCP plan deficiencies at 14 of the 15 plants we
                                 visited. We attribute these improvements, in part, to a number of reviews
                                 currently being performed by FSIS, particularly the FSA’s that reviewed the
                                 scientific basis of HACCP plans. FSIS had FSA’s performed at 6 of 15 plants
                                 we visited. The agency issued a 30-day reassessment letter to each of the
                                 plants requiring them to reassess their HACCP plans and initiate corrective

1
  The Food Safety and Inspection Service (FSIS) define “very small plants” as all plants with fewer than 10 employees or annual sales of
  less than $2.5 million.
2
  “Implementation of the HACCP System,” Audit No. 24001-3-At, dated June 21, 2000.

USDA/OIG-A/24601-5-AT                                                                                                         Page i
                                    actions on all of the findings identified in their reviews. These reviews helped
                                    reduce the number of deficiencies found at these plants during our review.

                                    However, we continued to find deficiencies with HACCP plans in that they
                                    were incomplete. Specifically, we found that (1) hazard analyses did not
                                    address all food safety hazards, 3 (2) production process steps were omitted
                                    from process flowcharts, and (3) changes that occurred in production
                                    processes were not always being updated in the HACCP plans. Many of these
                                    deficiencies occurred because FSIS inspectors or plant management either
                                    overlooked or were not aware of HACCP plan requirements.

                                    FSIS oversight and verification of SSOP also needs to be improved to ensure
                                    that meat and poultry products are free from adulteration and contamination.
                                    FSIS records and our visual inspections showed that 6 of 15 plants did not
                                    have adequate SSOP procedures, or did not maintain proper records to show
                                    that SSOP procedures were followed. FSIS had also found repetitive
                                    noncompliance deficiencies that were not adequately corrected at 7 of
                                    15 plants. This occurred because (1) FSIS inspectors did not verify the
                                    adequacy of the SSOP plans, (2) plant management did not follow the SSOP
                                    plans, or (3) plant management did not develop adequate corrective action to
                                    resolve noncompliances. Consequently, there is reduced assurance that
                                    SSOPs implemented by the plants were effective in ensuring that food safety
                                    was not compromised. During our review of FSIS and plant records, and
                                    visual inspection at 15 very small plants, we found some of the same
                                    repetitive SSOP noncompliances the inspectors and plant management found
                                    in the past. The noncompliances included: food particles left in machinery
                                    and equipment, dripping condensation, flaking paint over product processing
                                    areas, and improper storage of product. In one plant, we observed live rodents
                                    on two occasions in a 2-day period. The inspectors had cited this plant for
                                    rodent problems on two other occasions during the past year.

                                    In the prior HACCP audit report (Audit No. 24001-3-At, dated June 2000),
                                    we reported deficiencies in both plants’ HACCP plans and SSOPs. We
                                    recommended that FSIS ensure that inspectors routinely evaluate the
                                    sufficiency and effectiveness of HACCP plans and SSOPs, and require
                                    changes and modifications to plants’ HACCP and SSOP plans when needed.
                                    FSIS agreed to reinforce inspector’s authorities through better
                                    communication and training, national supervisory conferences, and work unit
                                    meetings. However, further actions are necessary to correct deficiencies
                                    noted in this audit.

                                    In addition, further guidance is needed over inspection activities, specifically
                                    with the accuracy and reviews of plants’ profiles and the timelines of
                                    corrective actions taken on noncompliance records (NR). Because of

3
    Plant operators are required to identify the biological, physical, and chemical hazards that may be encountered for each process in the
    production of a food product.

USDA/OIG-A/24601-5-AT                                                                                                             Page ii
                                     incorrect plant profiles and eligibility reports, 4 FSIS did not perform
                                     sufficient microbiological sampling at 1 of 15 plants; and, at a second plant,
                                     sampling tasks were generated which were not required at the plant. We also
                                     found that at 3 of the 15 plants, plant management had not timely responded
                                     to NR’s to show corrective actions were taken and/or adequate, even though
                                     NR’s had been opened for over 30 days. FSIS Directive 5400.5 requires
                                     inspectors to review “open” FSIS NR files daily. At a fourth plant, the
                                     inspector did not write NR’s because the inspector said it was not an effective
                                     method of addressing plant deficiencies.

                                     We also reviewed the security procedures at the 15 very small plants we
                                     visited and found that none had developed or implemented a formal security
                                     plan. We questioned plant managers about their security procedures and some
                                     of them said that they have a heightened awareness of security issues, but had
                                     not developed a formal plan. Although FSIS issued security guidelines for
                                     food processors in May 2002, they have not mandated minimum security
                                     procedures that plants must implement. During our visits, we observed the
                                     security practices of the plants and found the following vulnerabilities:

                                     •         The main receiving door at one plant was left open and unattended for
                                               extended periods of time.

                                     •         Unprocessed product was left on the loading dock at another plant.
                                               This product was unattended and could have been accessed by
                                               anyone.

                                     FSIS recently revised Directive 5420.1 to require inspectors to monitor
                                     plants’ security measures when the Department of Homeland Security issues
                                     a red, orange, or yellow alert. However, FSIS has not mandated that plants
                                     develop and implement written security plans.

Recommendations
in Brief                             We recommend that FSIS develop a system to ensure that FSA’s are
                                     conducted at the most high-risk and needed areas, and establish procedures to
                                     link FSA’s to IPPS reviews to determine why inspectors were not able to
                                     identify causes of plant noncompliances.

                                     We also recommend that FSIS include as a scheduled task in the Performance
                                     Based Inspection System for inspectors to review HACCP and SSOP plans to
                                     ensure timely reviews are being conducted, and require inspectors to review
                                     the HACCP training of plant employees who prepare the HACCP plans,
                                     particularly off-site contractors.



4
    Inspectors complete plant profiles that contain codes that identify inspection tasks to be performed at each plant. If incorrect codes are
     input into the plant profiles, all applicable inspection tasks will not be scheduled at the plant.

USDA/OIG-A/24601-5-AT                                                                                                              Page iii
                   FSIS should also establish definitive guidelines to ensure that adequate
                   corrective action is required and implemented at plants when repetitive
                   deficiencies are found, and improve guidance over inspector reviews of plant
                   profiles. We further recommend that FSIS establish minimum security
                   requirements at all plants.

Agency Response    In its June 1, 2005, written response to the draft report, FSIS stated that the
                   findings in the Office of Inspector General (OIG) report are not
                   representative of small and very small plants across the country because our
                   field visits to 15 plants represented less than 0.3 percent of the total small and
                   very small plants in the United States. However, FSIS provided a plan
                   showing corrective actions taken, the status of planned corrective actions, and
                   the target dates for completion of the corrective actions for each
                   recommendation in the report. We have incorporated FSIS’ response along
                   with our position in the Findings and Recommendations section of this
                   report. The agency’s entire response is included in exhibit D.

OIG Position       We disagree with FSIS’ assertion that our findings were not representative of
                   the conditions at small and very small plants in the United States. Although
                   we visited only 15 plants in our audit, we reviewed and analyzed
                   management reports with noncompliance data and FSA’s of hundreds of
                   plants nationwide. Items found in FSIS’ management reports and FSA’s were
                   consistent with the conditions noted in our findings. We concur with FSIS’
                   proposed corrective actions and have accepted management decisions for
                   Recommendations 1, 2, 4, 6, 7, 10, 11, 12, and 13. However, FSIS did not
                   provide specific actions planned, or estimated timeframes for
                   implementation, to correct the conditions noted for Recommendations
                   3, 5, 8, 9, and 14. Therefore, we cannot accept management decisions for
                   these recommendations.




USDA/OIG-A/24601-5-AT                                                                      Page iv
Abbreviations Used in this Report
CCP
   Critical Control Point............................................................................................................................ 1
CFR
   Code of Federal Regulations............................................................................................................... 10
CSI
   Consumer Safety Inspector ................................................................................................................... 4
CSO
   Consumer Safety Officer ...................................................................................................................... 4
E. coli
   Escherichia coli..................................................................................................................................... 2
FMIA
   Federal Meat Inspection Act................................................................................................................. 1
FSA
   Food Safety Assessment ....................................................................................................................... 4
FSIS
   Food Safety and Inspection Service...................................................................................................... 1
FSRE
   Food Safety Regulatory Essentials ..................................................................................................... 16
GAO
   Government Accountability Office....................................................................................................... 1
HACCP
   Hazard Analysis and Critical Control Point.......................................................................................... 1
IPPS
   In-Plant Performance System ............................................................................................................... 4
ISP
   Inspection System Procedure.............................................................................................................. 30
NR
   Noncompliance Record......................................................................................................................... 4
OIG
   Office of Inspector General .................................................................................................................. 6
PBIS
   Performance Based Inspection System............................................................................................... 11
PPIA
   Poultry Products Inspection Act ........................................................................................................... 1
PREP
   Pathogen Reduction Enforcement Program........................................................................................ 30
RTE
   Ready-to-Eat ......................................................................................................................................... 2
SSOP
   Sanitation Standard Operating Procedure............................................................................................. 2
USDA
   U.S. Department of Agriculture.......................................................................................................... 39




USDA/OIG-A/24601-5-AT                                                                                                                         Page v
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in this Report ........................................................................................................ v

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1.           FSIS Management Controls Need Improvement .................................................... 4

        Finding 1             Controls Over FSIS Inspection Procedures Need Improvement............................. 4
                                 Recommendation 1 .......................................................................................... 8
                                 Recommendation 2 .......................................................................................... 9

    Section 2.           HACCP Plans Are Not Meeting Regulatory Requirements ................................ 10

        Finding 2             HACCP Plans Need Improvement ........................................................................ 10
                                  Recommendation 3 ........................................................................................ 16
                                  Recommendation 4 ........................................................................................ 18
                                  Recommendation 5 ........................................................................................ 18
        Finding 3             Plants’ Monitoring of CCP’s and Other Processes Need Improvement ............... 19
                                  Recommendation 6 ........................................................................................ 22
                                  Recommendation 7 ........................................................................................ 22

    Section 3.           FSIS Oversight of SSOPs Needs Improvement ..................................................... 23

        Finding 4             Plants’ SSOP Plans and Monitoring Records Were Inadequate ........................... 23
                                  Recommendation 8 ........................................................................................ 25
        Finding 5             FSIS Continues to Issue Repetitive NR’s Without Requiring Adequate
                              Corrective Action or Taking Further Enforcement Actions.................................. 26
                                  Recommendation 9 ........................................................................................ 28

    Section 4.           FSIS Should Improve Guidance Over Inspector Activities ................................. 30

        Finding 6             Improvements Needed in Codes on Plant Profiles................................................ 30
                                  Recommendation 10 ...................................................................................... 32
        Finding 7             FSIS Inspectors Are Not Reviewing Open NR’s on a Daily Basis to Ensure
                              Prompt and Adequate Corrective Action .............................................................. 32
                                  Recommendation 11 ...................................................................................... 35
                                  Recommendation 12 ...................................................................................... 36
                                  Recommendation 13 ...................................................................................... 36



USDA/OIG-A/24601-5-AT                                                                                                                  Page vi
    Section 5.           FSIS and Plant Management Need to Place Greater Emphasis on Plant Security
                         .................................................................................................................................... 38

        Finding 8            Plant Security Measures Need Improvement ........................................................ 38
                                 Recommendation 14 ...................................................................................... 41
Scope and Methodology........................................................................................................................ 42
Exhibit A – Plants Selected for Review............................................................................................... 43
Exhibit B – Number of HACCP Plans Reviewed............................................................................... 44
Exhibit C – Security Measures at Very Small Plants ........................................................................ 45
Exhibit D – Agency Response .............................................................................................................. 46




USDA/OIG-A/24601-5-AT                                                                                                                           Page vii
Background and Objectives
Background         The mission of the Food Safety and Inspection Service (FSIS) is to ensure
                   that the nation’s commercial supply of meat, poultry, and egg products are
                   safe, wholesome, and correctly labeled and packaged. Under the Federal
                   Meat Inspection Act (FMIA) and the Poultry Products Inspection Act (PPIA),
                   FSIS inspects all meat and poultry sold in interstate and foreign commerce,
                   including imported products. Approximately 7,400 Federal inspectors carry
                   out inspection laws in some 6,200 plants. FSIS conducts its inspection
                   activities through its national office in Washington, D.C.; a technical service
                   office in Omaha, Nebraska; 15 district offices; and field offices where plants
                   are located.

                   Outbreak of foodborne illnesses and studies conducted over the past decade
                   established the need for fundamental changes and improvement in meat and
                   poultry inspection. To improve the safety of meat and poultry products and in
                   response to recommendations from the Government Accountability Office
                   (GAO) and the National Academy of Sciences, FSIS implemented additional
                   regulatory requirements for meat and poultry plants. These requirements
                   were intended to ensure that plants operate food safety systems that are
                   prevention-oriented and science-based. These systems, called Hazard
                   Analysis and Critical Control Point (HACCP) systems, were established in
                   July 25, 1996, when FSIS issued its final rule.

                   The HACCP final rule was based on seven principles adopted by the National
                   Advisory Committee on Microbiological Criteria for Food in its March 20,
                   1992, publication, Hazard Analysis and Critical Control Point System. While
                   the seven principles were not explicitly listed in regulatory text, they are
                   embodied in the regulatory requirements. The rule required plants to address
                   each of the seven principles in implementing their HACCP plans.

                   •      Principle No. 1: Conduct a hazard analysis – Plants determine the
                          food safety hazards that are likely to occur and identify the measures
                          needed to control them. Hazards can be biological (bacteria, etc.);
                          chemical (pesticides, etc.); and physical (metal fragments from
                          machinery, etc.).

                   •      Principle No. 2: Identify critical control points (CCP) – Plants
                          identify a point in the production process where controls can be
                          applied to eliminate a hazard.

                   •      Principle No. 3: Establish critical limits for each control point –
                          Plants set the maximum and/or minimum values (such as
                          temperatures) at which a hazard (such as bacterial growth) must be
                          controlled.


USDA/OIG-A/24601-5-AT                                                                    Page 1
                   •      Principle No. 4: Establish monitoring requirements – In-plant
                          quality control reviewers monitor the CCP’s to ensure their operation.

                   •      Principle No. 5: Establish corrective actions – Plants define actions
                          to be taken when monitoring discloses a deviation from a critical
                          limit.

                   •      Principle No. 6: Establish recordkeeping procedures – Plants are
                          required to maintain documentation of their hazard analysis and
                          HACCP plans, as well as records of their monitoring of control points
                          and establishment of critical limits.

                   •      Principle No. 7: Establish verification procedures – Plants must
                          ensure that their HACCP plans accomplish their intended goals.

                   In addition to requiring the development of HACCP plans, regulations
                   specified three other requirements that plants must comply with:

                   •      Plants must ensure hygienic facilities. They must develop and
                          implement written Sanitation Standard Operating Procedures (SSOP)
                          to document such activities as plant cleaning schedules and to track
                          adverse sanitary conditions that recur.

                   •      Slaughter plants must maintain a microbial testing program. They
                          must perform regular testing for generic Escherichia coli (E. coli),
                          and they must meet pathogen reduction performance standards for
                          Salmonella (plants producing raw meat products also must meet the
                          Salmonella performance standards).

                   •      Plants must ensure a product-safe environment. They must implement
                          a system of preventive controls designed to improve the safety of the
                          product, and they must maintain records documenting the
                          effectiveness of the controls.


                   Although the HACCP final rule was issued in July 1996, the implementation
                   dates for plants were based on the size of the plants. The very small plants
                   (fewer than 10 employees) had until January 2000 to implement HACCP.
                   SSOP and E. coli testing requirements became effective in January 1997.
                   Salmonella pathogen reduction standards became effective with the
                   implementation dates of HACCP. Since publishing the HACCP regulations,
                   FSIS has issued several directives, clarifications, and modifications such as: a
                   directive for controlling Listeria monocytogenes in ready-to-eat (RTE)
                   products; a series of generic HACCP plans to assist plants in writing their
                   own plant-specific plan; and notices for E. coli reassessments.



USDA/OIG-A/24601-5-AT                                                                     Page 2
                   FSIS prepared for the implementation of HACCP in very small plants
                   (approximately 3,400 federally-inspected and 2,300 State-inspected
                   plants) by providing extensive technical assistance and guidance to help them
                   meet HACCP requirements. FSIS recognized that very small plants had fewer
                   resources to draw on and their familiarization with HACCP was limited; for
                   these reasons, FSIS continues to assist very small plants. For example, FSIS
                   established:

                   •      A national coordinator for HACCP in small and very small plants to
                          coordinate the Very Small Plant Outreach Initiative;

                   •      A network of State HACCP contacts and coordinators, including the
                          District of Columbia and United States’ territories, who are
                          disseminating information on HACCP and providing technical
                          guidance to very small plants;

                   •      Language assistance (translators) for Asian-Pacific American and
                          Hispanic plant owners and operators;

                   •      Handbooks and guidebooks to assist very small plant owners and
                          operators in developing their own HACCP plans, tailored to their
                          operations; and

                   •      A HACCP hotline (1-800-233-3935) at the FSIS Technical Service
                          Center to respond to HACCP technical and implementation questions
                          and concerns.

Objectives         The overall objective of the audit was to determine the effectiveness of FSIS’
                   implementation of HACCP regulations at very small plants, and to determine
                   whether the HACCP program was effective in ensuring the wholesomeness
                   of meat and poultry products produced for consumers. Because of concerns
                   that the nation’s food supply could be the next target of terrorists, we also
                   determined if security measures were implemented at plants.




USDA/OIG-A/24601-5-AT                                                                   Page 3
Findings and Recommendations
Section 1.   FSIS Management Controls Need Improvement

Finding 1           Controls Over FSIS Inspection Procedures Need Improvement

                    FSIS’ management controls for monitoring plant operations and inspector
                    performance need improvement. FSIS implemented a series of reviews to
                    better monitor plant and inspector activities after our previous HACCP audit
                    of large and small plants. The most abundant of these reviews are the food
                    safety assessments (FSA). Our analysis of these reviews at very small plants
                    found them to be useful in identifying HACCP, SSOP, and other deficiencies
                    in plant operations. Also, FSIS initiated the In-Plant Performance System
                    (IPPS) to assess its inspectors’ performance. However, these reviews were
                    not linked in a manner so as to provide FSIS with a means to determine the
                    relationship between plant deficiencies noted in the FSA’s and deficiencies in
                    the inspectors’ performance noted in the IPPS. Additionally, the national
                    office had not developed written criteria regarding how districts should select
                    plants to receive FSA’s, and did not readily know which plants had received
                    a FSA, or how many complete FSA’s had been done. This information was
                    kept at each district office. Improving how FSIS utilizes these management
                    controls will result in its inspectors being more effective in identifying and
                    correcting deficiencies at their assigned plants, thereby improving the
                    deficiencies cited in Findings 2 through 4.

                    FSIS Directive 5000.1, Revision 1, dated May 21, 2003, provides
                    comprehensive direction to FSIS field personnel on how they are to protect
                    the public health by properly verifying a plant’s compliance with the
                    pathogen reduction, sanitation, and HACCP regulations. In this policy, FSIS
                    describes that consumer safety inspectors (CSI) focus on the execution or
                    implementation of the HACCP plan while consumer safety officers (CSO)
                    focus more on the design of the HACCP plans when they conduct an
                    assessment of the HACCP system. However, our analysis of the FSA’s
                    performed at our selected very small plants found that CSO’s were finding
                    numerous noncompliance issues with pathogen reduction, sanitation, and
                    HACCP regulations. This directive also states that when a CSI determines
                    that an establishment does not meet one or more of the regulatory
                    requirements, they should document this finding on a noncompliance record
                    (NR).

                    In addition to the changes FSIS made to inspectors’ duties, and as a result of
                    our prior HACCP audit issued in June 2000, FSIS initiated a series of
                    additional controls to ensure that inspectors were properly verifying that
                    plants had implemented successful HACCP and pathogen reduction systems.
                    FSIS initiated (1) Food Safety Correlation reviews to improve the
                    effectiveness of inspection activities at all federally inspected plants (over

USDA/OIG-A/24601-5-AT                                                                     Page 4
                                   400 at the time of our audit); (2) In-Depth Verification reviews to examine
                                   plants’ compliance with HACCP plan design and implementation
                                   requirements (over 80 at the time of our audit); and (3) FSA’s to review the
                                   scientific basis of HACCP plans (over 1,640 at the time of our audit). The
                                   CSO’s were trained in microbiological hazards, HACCP plan design,
                                   epidemiology, and statistics. In addition, FSIS provided additional HACCP
                                   training, held National Supervisory Conferences, and implemented the IPPS
                                   reviews. 5 The IPPS review system was developed over the concerns of the
                                   knowledge and abilities of inspectors to fulfill their public health assurance
                                   responsibilities when applying HACCP, SSOP, and other regulatory
                                   requirements.

                                   Our review found that the national office had no directive on conducting
                                   FSA’s or requirement to review all plants. FSIS Directive 5000.1 included a
                                   section on FSA’s but it only consisted of instructions on how to complete the
                                   assessment form. There were no FSIS procedures showing that high-risk
                                   plants were or should be targeted for FSA’s, or which high-risk indicators to
                                   use. FSIS had no centralized database to show the number of FSA’s that had
                                   been performed, or whether the assessments were comprehensive or special
                                   (comprehensive assessments generally lasted for about a week whereas a
                                   special assessment could last only 1 day). FSIS Notice 44-02 dated
                                   November 4, 2002, required that all plants that produce raw beef products
                                   reassess their HACCP plans for E. coli 0157:H7 by February 4, 2003.
                                   Therefore, comprehensive FSA’s performed after February 2003 included a
                                   review of the E. coli reassessment as part of their in-depth review of current
                                   HACCP and SSOP plans, while special assessments included only an E. coli
                                   reassessment. The national office could not readily determine the number of
                                   each type. Also, the national office did not have policies to direct districts to
                                   target high-risk plants or to determine whether all plants were scheduled to
                                   receive FSA’s. Each district planned its own assessments and maintained
                                   copies of the assessments.

                                   During our review, 6 of the 15 very small plants we selected had received a
                                   FSA prior to our visit. Three of these assessments appeared to be
                                   comprehensive (3 to 8 days) while the other three assessments were only one-
                                   day assessments to include a review of the plants’ E. coli reassessment. We
                                   found that the FSA’s were detailed and noted many exceptions that the FSIS
                                   inspectors had not previously noted. Details of the FSA’s at the six plants
                                   follow:

                                         Plant A: District office personnel were unable to locate Form 5000-8,
                                         Comprehensive Assessment of the Execution and Design of an
                                         Establishments Food Safety Systems, which documented the FSA. The
                                         district office did provide a 30-day reassessment letter showing that a


5
    FSIS Directive 4430.3, issued June 17, 2002.

USDA/OIG-A/24601-5-AT                                                                                      Page 5
                        3-day assessment was conducted about 10 months prior to our review
                        and resulted in 13 items of HACCP system noncompliance.

                        Plant D: A 4-day FSA was conducted about 9 months prior to our
                        review. This assessment detailed numerous deficiencies with the
                        HACCP and SSOP requirements and Sanitation Performance Standards.
                        The assessment resulted in a Notice of Intended Enforcement Action
                        being issued. FSIS deferred enforcement action after the plant agreed to
                        make all necessary changes and, about 3 months later, the CSI at the
                        plant verified that the establishment made all necessary changes.

                        Plant E: An 8-day FSA was performed about 5 months prior to our
                        review. The assessment detailed several SSOP record noncompliances
                        and numerous HACCP noncompliances, even though it was noted on the
                        assessment that there were only two NR’s written at this plant for the last
                        7 months, and none were for SSOP or HACCP deficiencies.

                        Plant F: A 1-day FSA was performed about 4 months prior to our review.
                        The assessment detailed eight HACCP deficiencies, four SSOP
                        deficiencies, and an E. coli 0157:H7 reassessment deficiency. These
                        items were subsequently corrected and we found no HACCP or SSOP
                        deficiencies at this plant.

                        Plant G: A 1-day FSA was performed about 4 months prior to our
                        review. This assessment detailed four HACCP system deficiencies and
                        one E. coli 0157:H7 deficiency.

                        Plant O: A 1-day FSA was performed about 13 months prior to our
                        review. This assessment noted 2 SSOP deficiencies and 13 HACCP
                        deficiencies, even though the FSIS plant inspector had not documented
                        any plant noncompliances prior to the FSA.

                   Although our audit disclosed several exceptions at these plants, we believe
                   we would have found many more exceptions if FSA’s had not been
                   performed. The FSIS inspectors have been trained in HACCP principles, but
                   did not identify many plants’ noncompliance with HACCP and SSOP
                   regulations, as evidenced by subsequent CSO and our current Office of
                   Inspector General (OIG) reviews of the plants’ operations.

                   We assessed the IPPS reviews conducted at the plants we visited. During an
                   individual IPPS review, supervisors could choose to review any of five main
                   areas of the inspector’s duties (verification of HACCP plan, verification of
                   SSOPs, inspections and sampling, maintains liaison, administrative duties,
                   and performs Am/Pm inspections) or parts thereof. Supervisors were
                   instructed to review all main areas of the inspector’s duties during the annual
                   review period. We found that 13 of the 15 plants visited were processing


USDA/OIG-A/24601-5-AT                                                                     Page 6
                   facilities where inspectors would be at the plant on a part-time basis only.
                   They inspected several other plants during their daily inspection duties.
                   Therefore, IPPS reviews were not performed for inspectors at some plants
                   they were responsible for during their inspection duties. In addition, FSIS
                   would rotate inspection duties for many inspectors, changing plants for each
                   inspector every 4 to 6 months. The inspector on duty at a plant we visited
                   may not have been the same inspector assessed for the last IPPS review at the
                   plant. FSIS officials emphasized that IPPS reviews were only an evaluation
                   of the FSIS inspector’s performance and not an evaluation of the plant’s
                   performance. We found that the IPPS reviews were not effective in
                   identifying why the inspectors were not able to identify HACCP and SSOP
                   deficiencies that existed at the plants. Several examples follow:

                        Plant E: Two IPPS reviews were documented for the inspector at this
                        plant during our review. The first IPPS review covered only procedures
                        for the verification of SSOPs, and did not disclose any deficiencies. The
                        second review performed 2 months later covered only procedures for the
                        verification of HACCP plans. The supervisor noted on the IPPS
                        Assessment Sheet that the inspector met the standards for reviewing
                        HACCP plans and taking regulatory action, but that followup actions
                        were needed for reviewing/verifying records, determining appropriate
                        corrective     action    by     plant,    and     determining    regulatory
                        compliance/noncompliance by the plants. The supervisor did not provide
                        any narrative on the assessment to explain or describe the specific
                        deficiencies. About 5 months later, a FSA on the plant disclosed several
                        SSOP deficiencies and numerous HACCP plan and E. coli testing
                        deficiencies. The inspector at the plant had not written any NR’s at this
                        plant for these types of deficiencies for the prior 7 months. Therefore, the
                        IPPS reviews at this plant did not appear to improve the inspector or
                        plant’s performance, as evidenced by the subsequent FSA.

                        Plant O: The supervisor documented one IPPS review at this plant during
                        our audit period. He covered parts of four main areas of inspector’s
                        duties during this review, and documented that he reviewed the
                        inspector’s verification of HACCP and SSOPs, including whether the
                        inspector documents regulatory noncompliance. The supervisor found no
                        deficiencies with the inspector in these areas and documented that the
                        inspector was keeping a tight inspection regime on his patrol. During our
                        review, we found that this inspector did not document NR’s at this plant
                        when he found noncompliance because the plant agreed to correct the
                        deficiencies. This condition was in violation of FSIS policy but was not
                        noted by the supervisor performing the IPPS review.

                   We concluded that IPPS reviews were not always an accurate measure of
                   inspectors’ performance at the plants we visited. Even if a supervisor noted
                   deficiencies in an IPPS review, when the supervisor followed up on the


USDA/OIG-A/24601-5-AT                                                                      Page 7
                   deficiency during the next review, the inspector may have been at a different,
                   well-managed plant without any problems. The inspector’s deficiencies could
                   still exist, but go undetected. FSIS should consider the IPPS reviews to
                   determine how to tie the plant’s performance more closely with the
                   inspector’s performance (i.e., a poor performing plant should have more
                   NR’s and enforcement action documented than a good plant). In addition,
                   FSIS needs to determine why inspectors are not documenting more HACCP
                   and SSOP deficiencies when FSA’s are finding many of these deficiencies.

Recommendation 1

                   Develop a system to ensure that FSA’s are conducted at the most high-risk
                   and needed areas, and maintain a centralized database of these assessments to
                   ensure that coverage is adequate and conducted in the most needed areas.

                   Agency Response. In its June 1, 2005, response, FSIS stated:

                          FSIS conducts * * * FSAs based on risk to public health. In
                          accordance with the food safety objectives outlined in Healthy
                          People 2010, which include reducing infection caused by
                          foodborne pathogens and reducing outbreaks of foodborne
                          pathogens, FSIS targets * * * [FSA’s] at high risk operations.
                          For example, FSA’s are conducted at plants that have been
                          associated with an outbreak of foodborne illness or identified
                          with risk associated with E.coli 0157:H7. Also, as part of its
                          Management Control System, FSIS has documented and
                          implemented a control activity for FSA’s that establishes
                          specific levels of performance for all assessments. * * *.
                          Additionally, FSIS will implement a control activity and
                          information system within its Management Control System
                          with standard procedures for FSA’s. As part of this process,
                          FSIS is developing procedures for identifying the inherent risk
                          of a product or process that will be used to further target all
                          FSA’s to the highest risk establishments. These standard
                          procedures will further improve FSIS’ ability to focus FSA’s
                          as the most high-risk and needed areas.

                          Timeframe
                          FSIS will establish additional control activities, including the
                          standard procedures for Enforcement, Investigations, and
                          Analysis Officers * * * [FSA’s], by September 30, 2005.

                   OIG Position. We concur with FSIS’ proposed corrective actions and have
                   accepted management decision for this recommendation.




USDA/OIG-A/24601-5-AT                                                                    Page 8
Recommendation 2

                   Establish procedures to link FSA results to IPPS reviews. Utilize the results
                   to better identify the causes of inspectors not identifying noncompliances
                   with HACCP, SSOP, and pathogen reduction requirements.

                   Agency Response. In its June 1, 2005, response, FSIS stated:

                          FSIS will develop a control activity that uses information from
                          the IPPS to align it with key food safety and food security
                          functions. As part of this activity, supervisors will consider the
                          results from FSA’s, in addition to other measures of
                          compliance with inspection system activities, in preparation
                          for IPPS reviews. As part of the more fully documented
                          Management Control System * * *, IPPS reviews are used to
                          hold supervisors accountable for specific levels of
                          performance in monitoring the conduct of in-plant inspection
                          and verification activities.

                          FSIS has established specific levels of performance
                          (performance measures) for its key food safety and food
                          security functions, to be monitored by FSIS managers through
                          the use of an automated database. Supervisory personnel in
                          Circuits and Districts failing to meet the established
                          performance levels for key functions will be given feedback for
                          improvement during performance reviews.

                          Timeframe
                          FSIS will implement control activities for the IPPS to align
                          them with key food safety and food security functions by
                          September 30, 2005.

                   OIG Position. We concur with FSIS’ proposed corrective actions and have
                   accepted management decision for this recommendation.




USDA/OIG-A/24601-5-AT                                                                      Page 9
Section 2.            HACCP Plans Are Not Meeting Regulatory Requirements

                                   Under the HACCP system, each establishment determines the food safety
                                   hazards that are likely to occur in their production process and establishes
                                   preventive measures to reduce or eliminate the hazards. One of the major
                                   steps in developing a HACCP plan is to develop a process flowchart. The
                                   chart should show all steps in the production process from the receipt to the
                                   distribution of the product and should be verified to ensure its accuracy.
                                   Failure of any establishment under HACCP to develop and implement an
                                   adequate HACCP plan and system may result in an FSIS determination that
                                   the plant may be producing adulterated products. 6

                                   During our audit, we reviewed 36 HACCP plans at 15 plants (see exhibit B)
                                   and found HACCP plan deficiencies in 9 of these plants. This is an
                                   improvement from our prior audit in which we found HACCP plan
                                   deficiencies at 14 of the 15 plants we visited. We attribute these
                                   improvements, in part, to the reviews currently being performed by FSIS.

                                   In our review of 9 of 15 very small meat and poultry plants, we found that
                                   HACCP plans were incomplete because (1) hazard analyses did not address
                                   all hazards, (2) production process steps were omitted from process
                                   flowcharts, (3) changes that occurred in production processes were not
                                   always being included in the plans, or (4) plants were not properly
                                   monitoring CCP’s in their food production processes. Many of these
                                   deficiencies occurred because FSIS inspectors, plant management, or
                                   contractors were not aware of HACCP plan requirements or inadvertently
                                   overlooked the deficiencies, and supervisory and other reviews did not
                                   identify these deficiencies. (See Finding No. 1.)



Finding 2                          HACCP Plans Need Improvement

                                   Although improvements and efforts have been made, FSIS needs to continue
                                   aggressive monitoring of HACCP implementation at the very small plants
                                   because we found that HACCP plans needed improvement. We found that
                                   plants did not meet the regulatory requirements as (1) 6 of the 15 plants
                                   visited omitted at least 1 process step from their hazard analysis, even though
                                   these steps had been listed on their flowcharts, (2) 2 of the 15 plants we
                                   reviewed had not reassessed their HACCP plans when required; and (3) at
                                   3 of the 15 plants visited, the hazard analyses did not identify or address if
                                   food safety hazards were reasonably likely to occur in their process steps.
                                   Plant management was not always aware of HACCP plan requirements. In
                                   addition, FSIS inspectors did not thoroughly review HACCP plans. Because
6
    Title 9, Code of Federal Regulations (CFR) 417.2 (e)

USDA/OIG-A/24601-5-AT                                                                                   Page 10
                         hazard analyses did not always identify likely hazards or omitted process
                         steps, there is reduced assurance that plants properly identified and provided
                         preventive measures for the hazards.

                         Our review noted that in the 15 plants visited, FSIS inspectors wrote only
                         1 NR for actual HACCP plan deficiencies within a 1-year period. Two
                         inspectors acknowledged that they had not reviewed their plants’ HACCP
                         plans since they had been assigned responsibility for the plants. One
                         inspector had been at the plant for over a year and the other inspector had
                         rotated into the plant 3 months earlier. FSIS procedures require inspectors to
                         review plants’ HACCP plans at least once a year or upon rotation, but
                         inspectors must perform an unscheduled task to review the plans when
                         needed. FSIS’ Performance Based Inspection System (PBIS) does not assign
                         a specific scheduled task for inspectors to assess HACCP plans on a periodic
                         basis.

                         A. Production process steps were omitted from the hazard analysis and
                         flowchart

                         Six of the 15 plants visited omitted at least one process step from their hazard
                         analysis, even though these steps had been listed on their flowcharts. In
                         addition, we found three plants with process steps listed on their hazard
                         analysis that were omitted from their flowcharts. At two of these plants, a
                         contractor had developed the HACCP plan for the plants without being
                         properly trained. This occurred because FSIS inspectors had not verified the
                         plant operations process flow to the flowchart and to the hazard analysis, and
                         had not verified that a contractor who prepared HACCP plans had adequate
                         training. The inspectors inadvertently overlooked these deficiencies, and
                         supervisory and other reviews did not identify these deficiencies. FSIS
                         officials also stated that inspectors do not certify or verify the training of
                         HACCP plan preparers. As a result, plant management overlooked food
                         safety hazards that existed in their production process, and failed to apply
                         preventive measures to these hazards that increased the risk of producing
                         adulterated products.

                         Federal regulations 7 state that a flowchart describing the steps of each
                         process and product flow in the establishment shall be prepared, and the
                         intended use or consumers of the finished product shall be identified. FSIS
                         provided a training and technical guidance manual to very small plants
                         entitled Your Self Study Guide to Understanding How to Develop a HACCP
                         Plan. As part of the training materials, plant employees are to prepare a
                         flowchart that shows all the steps in the production process (everything from
                         receiving through distribution), verify the flowchart’s accuracy, and perform
                         a hazard analysis for each process step. It is critical that process steps
                         depicted in the flowchart be analyzed in the hazard analysis. FSIS inspectors
7
    9 CFR 417.2 (a)(2)

USDA/OIG-A/24601-5-AT                                                                          Page 11
                   are required 8 to verify the adequacy of the HACCP plan(s) by determining
                   that each HACCP plan meets requirements and all other applicable
                   regulations.

                   As stated in 9 CFR 417.7, only an individual who has successfully completed
                   a course of instruction in the application of the seven HACCP principles to
                   applicable meat or poultry product processing, including segments on the
                   development of a HACCP plan for a specific product and record review, shall
                   be permitted to develop a HACCP plan.

                   The number of plants noted with process steps omitted from either their
                   hazard analysis or flowchart is shown below:


                   Table 1: Plants with process steps omitted from hazard analysis or
                   flowchart.
                                   Process steps omitted    Process steps omitted
                       Plant
                                   from hazard analysis        from flowchart
                         A                                            5
                         C                    1
                         D                    1
                         E                    4                       1
                         I                    1
                         K                    3                       1
                        M                     6
                       Totals                16                       7


                   Several examples of the deficiencies we noted follow:

                   At plant E, we found four process steps identified on the flowchart, but not
                   addressed in their “Fully Cooked Not Shelf Stable” hazard analysis for turkey
                   and pork products. These process steps included receiving non-meat
                   ingredients, storage of non-meat ingredients, brine mixing, and catering. In
                   addition, in their hazard analysis “Fully Cooked Not Shelf Stable” for cured
                   sausage products, we found one process step (hanging) for cured beef and
                   sausage products was addressed in the hazard analysis, but not listed on the
                   flowchart. Plant managers agreed with these deficiencies and stated they were
                   overlooked during their latest reassessment of the HACCP plan. The FSIS
                   inspector had not been trained in the principals of HACCP as he had been on
                   extended sick leave.

                   Plant K had two process steps (receiving and storage of meat and non-meat
                   products) listed on their flowchart, but not addressed in their hazard analysis.

8
    9 CFR 417.8

USDA/OIG-A/24601-5-AT                                                                    Page 12
                   In addition, a third process step (returned/reworked product) was not listed on
                   their flowchart or included in their hazard analysis. Plant management agreed
                   with our analysis and said they would adjust their flowcharts and hazard
                   analyses. FSIS had not conducted a FSA at this plant at the time of our audit.

                   We found that 4 of 15 plants had their HACCP plans developed by a
                   contractor. In two of these plants (plants A and C), the same contractor
                   developed the HACCP plans, SSOPs, and pathogen sampling procedures.
                   Our review of plant records and discussions with the contractor for these two
                   plants revealed that the contractor had not obtained the required training. The
                   contractor stated that their knowledge of FSIS regulations and experience
                   was the only training needed for developing HACCP plans. The contractor
                   added that she attended a 3-day HACCP Train-the-Trainer course conducted
                   by industry officials, but this training did not cover developing HACCP
                   plans, SSOPs, or sampling procedures. In addition, the contractor stated that
                   they contract with over 100 other plants.

                   During our review, we found deficiencies at these two plants (plants A and
                   C) that used the same contractor. Based on our review, both HACCP plans at
                   the two plants needed to be reassessed due to changes in the hazard analysis.
                   Plant A had a FSA performed February 24, 2003. The review disclosed
                   numerous deficiencies and a 30-day reassessment letter was issued to the
                   plant on February 27, 2003. The inspectors at these two plants had not
                   inquired whether the HACCP plan was developed by an individual with
                   adequate HACCP training.

                   Our review also revealed that plant management at both plants were
                   apparently not aware of the contents included in their HACCP plans. Plant
                   managers said that the contractor performed a one-day “walk through”,
                   observing the plant’s food processing operations, and then mailed the
                   HACCP plan back to the plant.

                   B. Plant hazard analyses did not address food safety hazards

                   In 3 of the 15 plants visited, the hazard analyses did not identify or address
                   whether food safety hazards were reasonably likely to occur in all of their
                   production processes. In two cases, plant management overlooked this
                   discrepancy during their HACCP plan reassessment. In the other case, plant
                   management inadvertently omitted these items when they revised their
                   HACCP plan after a FSA had been performed at the plant. FSIS inspectors
                   did not properly review the HACCP plans. As a result, there was reduced
                   assurance that the plants could properly identify and provide preventive
                   measures for food safety hazards.




USDA/OIG-A/24601-5-AT                                                                   Page 13
                         FSIS regulations 9 state that,

                            Every official establishment shall conduct, or have conducted for
                            it, a hazard analysis to determine the food safety hazards
                            reasonably likely to occur in the production process and identify
                            the preventive measures the establishment can apply to control
                            those hazards. The hazard analysis shall include food safety
                            hazards that can occur before, during, and after entry into the
                            establishment. A food safety hazard that is reasonably likely to
                            occur is one for which a prudent establishment would establish
                            controls because it historically has occurred, or because there is
                            a reasonable possibility that it will occur in the particular type of
                            product being processed, in the absence of those controls.

                        Identifying and addressing food safety hazards is a critical process in
                        ensuring that plants are not producing adulterated products. At plant D,
                        although plant management had identified a “biological” (pathogen growth)
                        food safety hazard in the hazard analysis for its production process step for
                        “repackage,” plant management had not identified whether the food safety
                        hazard was likely to occur; determined if corrective measures could be
                        applied to prevent, eliminate, or reduce the hazard to an acceptable level; or
                        decided if a CCP was needed to control this hazard. This occurred because
                        plant management inadvertently overlooked this discrepancy during a
                        reassessment and revision of their HACCP plan after a FSA had been
                        performed.

                        At plant F, plant management correctly identified a potential biological food
                        safety hazard during processing, but did not establish critical limits for two of
                        four products (pork and lamb) that the plant produces. The plant’s hazard
                        analysis showed that finished raw product maximum temperatures of 45°F
                        and 40°F were established for beef and chicken only.

                        Management at plant E did not identify food safety hazards (chemical or
                        physical) in their beef slaughter hazard analysis, or address whether these
                        hazards were likely to occur in the “split breast and pelvis” production
                        process step. Plant management stated that they were not aware that these
                        food safety hazards had not been addressed in this production process step.
                        As a result, the hazard analysis was incomplete for this process. Also, plant
                        management identified a “biological” hazard (pathogen) for the production
                        process step “packing and labeling,” but did not address whether it was likely
                        to occur. If it was likely to occur, plant management did not provide any
                        corrective measures to prevent, eliminate, or reduce the hazard to an
                        acceptable level, and therefore, a CCP would be required. The FSIS inspector
                        had not performed an adequate review of the hazard analysis to detect any
                        food safety hazards that were not addressed. This inspector had been on
9
    9 CFR 417.2(a)(1)

USDA/OIG-A/24601-5-AT                                                                          Page 14
                          extended sick leave and did not receive HACCP training. The circuit
                          supervisor said he had performed numerous visits to the plant in addition to a
                          FSA that was performed on the plant prior to our visit. However, we found
                          none of these deficiencies were noted in the food safety report, or by the
                          circuit supervisor in his visits.

                          C. Plants are not reassessing HACCP plans for E. coli 0157:H7 and
                          other plant process changes

                          Two of the 15 plants we reviewed had not reassessed their HACCP plans as
                          required by FSIS regulations. One of the plants had not reassessed its
                          HACCP plan for E. coli 0157:H7, even though this plant produced beef and
                          should have reassessed its HACCP plan by April 7, 2003, as required by
                          FSIS Notice 44-02. Another plant had not reassessed their HACCP plan after
                          a change in the implementation of product process design. At one plant, the
                          inspector had been recently trained in the principles of HACCP, but had not
                          received on-the-job training or close supervision. At the other plant the FSIS
                          inspector did not ensure that the HACCP plan had been reassessed after
                          changes in the plant’s production process. As a result, FSIS could not
                          determine whether plants have systems and controls in place designed to
                          ensure safety of food products.

                          FSIS issued Notice 44-02 (November 4, 2002) that required very small plants
                          producing raw beef to reassess their HACCP plans for E. coli 0157:H7 by
                          April 7, 2003. In addition, the notice stated that plants must determine
                          whether E. coli 0157:H7 contamination was a hazard reasonably likely to
                          occur in their production process. The notice stated that, upon receipt,
                          inspectors were to discuss its requirements with plant managers in order to
                          verify that they understood the obligation to reassess and the timeframe in
                          which to complete the reassessment. Plants were also required 10 to reassess
                          the adequacy of their HACCP plan annually and whenever any changes
                          occurred that would affect the hazard analysis or alter their HACCP plan.

                          During our review, we found one plant (plant A) that came under the
                          auspices of Notice 44-02, but did not comply with its provisions. This plant,
                          which produces beef and poultry products, had reassessed its HACCP plan,
                          but not to determine if E. coli was likely to occur in their production process.
                          The inspector (a new inspector on his first assignment) was neither aware of
                          the notice nor was he aware that a reassessment for E. coli 0157:H7 had to be
                          made on the plant’s HACCP plan. The inspector had recently been assigned
                          to the plant and, although trained in the principles of HACCP, did not
                          understand the requirements of Notice 44-02. The inspector felt that prior
                          reassessments performed at the plant met the requirement of reassessment for
                          E. coli 0157:H7. According to this notice, if a plant failed to reassess its


10
     9 CFR 417.4 (a)(3)

USDA/OIG-A/24601-5-AT                                                                           Page 15
                       HACCP plan, the inspector should issue an NR on FSIS Form 5400-4, which
                       was not done.

                       We also found that plant M should have reassessed its HACCP plan because
                       of a production process change that occurred in its RTE products. Plant
                       management implemented a production process to have its products
                       marinated overnight under refrigeration before cooking. This process was
                       occurring in 4 of the plant’s 25 RTE products. We found that neither the
                       plant’s hazard analysis nor its HACCP plan was reassessed in order to
                       identify any food safety hazards that might be likely to occur, the existence of
                       any pathogens, or whether a CCP was necessary in order to control the
                       pathogens. Federal regulations 11 require reassessment of the adequacy of the
                       hazard analysis whenever a change occurs that could reasonable affect
                       whether a food safety hazard exists. Plant managers agreed with the
                       deficiency and noted that it was due to an oversight on their part. The FSIS
                       inspector did not ensure that the HACCP plan had been reassessed to include
                       the change in the plant’s production process.

Recommendation 3

                       Include as a specific scheduled task in PBIS for inspectors to assess HACCP
                       plans annually, or upon rotation, to ensure that timely reviews are being
                       performed.

                       Agency Response. In its June 1, 2005, response, FSIS stated:

                              FSIS proposes an alternative approach in order to meet the
                              concern identified. Establish management controls to ensure
                              that inspectors assess HACCP plans annually, or upon
                              rotation, and that timely reviews are being performed.

                              FSIS Directive 5000.1, Revision 1, Amendment 1, Verifying an
                              Establishment’s Food Safety System * * *, addresses timely
                              HACCP plan assessments. It is neither necessary nor practical
                              to schedule reviews of plants’ HACCP plans by Consumer
                              Safety Inspectors because reviews are ongoing. FSIS Directive
                              5000.1 establishes that HACCP plan reviews are conducted
                              on an ongoing basis as part of scheduled inspection
                              verification procedures.

                              Regular HACCP plan reviews are also reinforced in Food
                              Safety Regulatory Essentials (FSRE) training. FSRE training
                              covers the full range of inspection responsibilities in relation
                              to the HACCP/Pathogen Reduction; Rules of Practice;
                              Sanitation Performance Standards; and SSOP. CSI are
11
     9 CFR 417.4 (b)

USDA/OIG-A/24601-5-AT                                                                        Page 16
                          trained in HACCP verification; Pathogen Reduction; and food
                          safety sampling. CSI are instructed to use the basic
                          compliance checklist (FSIS Form 5000-1) to review an
                          establishment hazard analysis assessing compliance with Part
                          417 when in a new establishment, when an establishment adds
                          a new product or process, or when the CSI becomes aware
                          that a modification to an existing HACCP plan has been
                          made. The directive and training provide instruction to CSI on
                          actions that should be taken based on the findings of the
                          review. In addition, CSI are instructed to review
                          establishments’ HACCP plans each time they perform HACCP
                          verification procedures as a primary means of gathering
                          information regarding a plant’s processes and determining
                          regulatory compliance.

                          Additionally, FSIS has linked control activities and
                          performance measures under its Management Control System
                          * * *. The four critical constituent control activities for
                          HACCP/Pathogen Reduction Executive are: 1) sanitation
                          performance standards; 2) SSOPs; 3) HACCP-03 procedures;
                          and 4) pathogen sampling. FSIS, as part of its Management
                          Control System, has established performance measures
                          associated with the execution of all critical control activities
                          in order to improve accountability and strengthen public
                          health.

                          Timeframe
                          FSIS will implement control activities for the IPPS to align
                          them with HACCP/Pathogen Reduction Execution by
                          September 30, 2005.

                   OIG Position. We cannot accept management decision for this
                   recommendation. FSIS Directive 5000.1, requiring inspectors to review
                   HACCP plans annually or upon rotation, which FSIS proposes as its basis to
                   correct the cited deficiencies, was already in effect during our fieldwork but
                   was not adhered to by the inspectors. FSIS’ response regarding the
                   Management Control System was not specific enough to correct the cited
                   deficiencies. In addition, FSIS’ response to implement controls to align IPPS
                   to HACCP/Pathogen Reduction execution did not specifically address a
                   review of HACCP plans. FSIS needs to implement specific controls to ensure
                   that required reviews of HACCP plans are conducted.




USDA/OIG-A/24601-5-AT                                                                  Page 17
Recommendation 4

                   Ensure that the inspector who was at plant E, and at least one employee
                   responsible for HACCP at each plant, has been adequately trained in the
                   seven principles of HACCP.

                   Agency Response. In its June 1, 2005, response, FSIS stated:

                          FSIS will verify that the inspector who was at plant E has been
                          adequately trained in the seven principles of HACCP. FSIS
                          personnel responsible for inspection verification at
                          establishments have been adequately trained in the seven
                          principles of HACCP. Inspection program personnel are
                          required to demonstrate proficiency in “Verification of
                          HACCP Plans” during at least one of two mandatory IPPS
                          assessments carried out annually by the Frontline Supervisor
                          under the IPPS. In addition, most inspection program
                          personnel have received or will receive FSRE training which
                          covers responsibilities related to the HACCP/Pathogen
                          Reduction.

                          FSIS has established a control activity and performance
                          measures under its Management Control System * * * that
                          will enable senior managers to monitor the appropriate
                          execution of IPPS assessments by Frontline Supervisors. This
                          includes review by each supervisory level up to and including
                          the Assistant Administrator of the Office of Field Operations.

                          Timeframe
                          FSIS will provide evidence that FSIS inspection personnel
                          have been adequately trained in the seven principles HACCP
                          by July 30, 2005.

                   OIG Position. We concur with FSIS’ proposed corrective actions and have
                   accepted management decision for this recommendation.

Recommendation 5

                   Require the inspectors to review the HACCP training received by individual
                   plant employees who develop HACCP plans to ensure they have been trained
                   in the principles of HACCP in accordance with 9 CFR 417.7.

                   Agency Response. In its June 1, 2005, response, FSIS stated:

                          FSIS proposes an alternative approach in order to meet the
                          concern identified: Require FSIS to verify that the plant design

USDA/OIG-A/24601-5-AT                                                                  Page 18
                          and execution of HACCP plans and SSOPs meet the principles
                          of HACCP.

                          FSIS Directive 5000.1, Revision 1, Amendment 1, Verifying
                          and Establishment’s Food Safety System * * *, contains the
                          criteria for comprehensive verifications and assessments of all
                          food safety systems.

                          FSIS has established a control activity and performance
                          measures under its Management Control System * * * that
                          will enable senior managers to monitor the appropriate
                          executive of IPPS assessments by Frontline Supervisors. This
                          includes review by each supervisory level up to and including
                          the Assistant Administrator of the Office of Field Operations.

                   OIG Position. We cannot accept management decision for this
                   recommendation. FSIS’ proposed corrective actions were not specific and
                   would not resolve the noted condition. When FSIS inspectors identify
                   noncompliances with HACCP plans, and do not review the training received
                   by the individual who developed the HACCP plan, then the inspector may
                   not identify the root cause of deficiencies noted in these plans. This could
                   result in inadequate corrective actions and repetitive noncompliances. To
                   reach management decision, FSIS officials should specifically address the
                   recommendation.



Finding 3          Plants’ Monitoring of CCP’s and Other Processes Need
                   Improvement

                   Four of the 15 plants were not properly monitoring the CCP’s in their food
                   production processes. Monitoring is a fundamental part of any HACCP
                   system and it consists of observations or measurements. Although the plants
                   had identified CCP’s in their hazard analysis and established corrective
                   actions to be taken, we found instances where plant employees (1) did not
                   monitor CCP’s, (2) could not locate monitoring logs, and (3) did not follow
                   monitoring frequencies as established. We identified these same conditions in
                   our previous HACCP audit (Audit Report 24001-3-At, dated June 2000) of
                   large and small plants, and recommended that FSIS implement a system of
                   oversight reviews. Although these reviews, when conducted, noted numerous
                   HACCP deficiencies, less than half of all 6,200 plants have received a
                   review. We found plant managers and staff that were not properly trained in
                   the principles of HACCP, and in many instances, relied on the inspector or a
                   paid contractor to ensure that their plans and procedures complied with
                   regulatory requirements. In addition, FSIS inspectors did not verify the
                   adequacy of the plants’ HACCP plans and CCP records, nor did they perform

USDA/OIG-A/24601-5-AT                                                                  Page 19
                   adequate on-site observations or records reviews. As a result, FSIS inspectors
                   and plant management at these four plants could not always ensure if plant’s
                   HACCP plans were effective in controlling food safety hazards, nor could
                   they provide adequate written documentation to ensure the plant was in
                   compliance with HACCP requirements.

                   Under the HACCP system, 9 CFR 417.5 requires every meat and poultry
                   plant to maintain records that contain the actual values and observations
                   obtained during their CCP monitoring. This information is to be contained in
                   a formal HACCP plan and the plan should list the frequencies with which
                   each procedure will be performed in accordance with the validation,
                   verification, and reassessment of the HACCP plan. It also requires plants to
                   maintain records documenting their monitoring of CCP’s and their critical
                   limits, including the recording of actual times, temperatures, or other
                   quantifiable values, as prescribed in the plant’s HACCP plans.

                   In addition, 9 CFR 417.8 requires FSIS to verify the adequacy of the plant’s
                   HACCP plan by determining that each HACCP plan meets the requirements
                   of FSIS regulatory guidance. Such verification includes reviewing HACCP
                   plans, CCP records, critical limits, direct observation or measurement at a
                   CCP, or onsite observations and records review.

                   At plant A, we found that plant employees were not currently performing any
                   monitoring (temperature) of the three CCP’s identified in their process steps
                   for chilling, cooking/frying, and chilling and freezing. We found many of the
                   plant’s monitoring records missing from the files and many reflecting the
                   initials of an employee who had left the plant 3 months before our review.
                   The inspector acknowledged that the employee had left the plant and that the
                   records reflecting the employee’s initials were not valid. Plant management
                   also agreed that this employee left the plant 3 months prior and that these
                   logs were not accurate. We found that the employee who recently assumed
                   the duties and responsibilities for HACCP had not been properly trained in
                   monitoring requirements and procedures. The recently hired inspector stated
                   that he was unaware that monitoring checks were not being performed. The
                   inspector visited the plant only on days in which the plant processed meat,
                   which was only 1 or 2 days per week. In addition, we found that this plant
                   was not performing weekly calibration of their thermometers, as required by
                   their HACCP plan.

                   We found that monitoring checks were not consistently performed at plant B.
                   Additionally, one CCP was missing from the plant’s hazard analysis, and the
                   plant’s HACCP plan did not address the frequencies of verification activities,
                   supporting decision-making documents for established critical limits, or
                   corrective actions that should be taken for any of its three CCP’s. In addition,
                   we found very few records for any of its CCP’s showing that monitoring or
                   verification was done. The plant owner admitted that he was not able to


USDA/OIG-A/24601-5-AT                                                                    Page 20
                   maintain accurate and updated files as he has no paid administrative staff. In
                   addition, we found that the inspector had not reviewed the plant’s HACCP
                   plan in order to verify the plant was adhering to the monitoring and
                   verification frequencies for each of the plant’s CCP’s. We observed that the
                   FSIS inspector spent most of his time performing and overseeing the plant’s
                   slaughter activities instead of verifying HACCP requirements.

                   At plant C, monitoring logs for four CCP’s were missing. On one HACCP
                   plan “Raw Not Ground,” plant officials retained monitoring logs for two
                   CCP’s for only the 2 most recent months. In another HACCP plan, “Fully
                   Cooked Not Shelf Stable,” monitoring records for process steps
                   (cooking/smoking and cooling) were only available for one out of the past
                   6 months. In addition, we found that HACCP plan “Raw Ground” contained
                   one CCP (grind meat) for which we found no monitoring logs being
                   maintained. The plant manager noted that new forms had been recently
                   developed in order to monitor this CCP. We also found no calibration
                   procedures or weekly calibration forms being used to calibrate one of the
                   plant’s four thermometers. The monitoring log indicates that this
                   thermometer was being used to monitor temperature frequencies for two of
                   the plant’s CCP’s for HACCP plan “Raw Not Ground.” The plant manager
                   stated that the plant has been operating at this facility since November 2003
                   and files had been misplaced during their move to this new facility. The plant
                   manager added that staff members were not trained in HACCP systems, and
                   that he relied on the FSIS inspector and a paid contractor to keep them
                   informed of HACCP requirements. The FSIS inspector said this was an
                   oversight during his reviews of the HACCP plan. Supervisory and other
                   reviews also did not identify these deficiencies. (See Finding No. 1.)

                   At plant I, the plant’s HACCP plan did not clearly distinguish between
                   products that do and do not fall under the monitoring requirements of the
                   CCP. For example, the hazard analysis for the “shipping” process step stated
                   that the product temperature should be less than or equal to 40°F prior to
                   shipping, but product temperature was not being measured at this step. The
                   plant manager stated that monitoring was only performed for the CCP when
                   product was processed, not when previously processed product just passed
                   through the plant. Our review of the plant’s monitoring log found it was very
                   difficult to determine which products just passed through the plant and which
                   products were processed by the plant. The dates listed on the CCP monitoring
                   log also were not legible for all temperatures taken at the receiving step. A
                   CSO performed a review at this plant approximately 3 weeks after our
                   review. The CSO noted deficiencies similar to our findings. The CSO issued
                   a 30-day letter after the assessment.




USDA/OIG-A/24601-5-AT                                                                  Page 21
Recommendation 6

                   Review CCP monitoring records at plant A and determine if records were
                   accurate. If not, take appropriate administrative or enforcement actions.

                   Agency Response. In its June 1, 2005, response, FSIS stated:

                          FSIS will review CCP monitoring records at plant A,
                          determine if records were accurate, and take appropriate
                          administrative or enforcement actions if necessary.

                          Timeframe
                          FSIS will complete the review of CCP monitoring records at
                          plant A and take appropriate administrative or enforcement
                          actions by July 30, 2005.

                   OIG Position. We concur with FSIS’ proposed corrective actions and have
                   accepted management decision for this recommendation.

Recommendation 7

                   Review cited plants’ monitoring of CCP’s and require changes at each plant
                   to ensure they meet regulatory requirements.

                   Agency Response. In its June 1, 2005, response, FSIS stated:

                          FSIS will review the cited plants’ monitoring of CCP’s and
                          require changes at each plant to ensure they meet regulatory
                          requirements.

                          Timeframe
                          FSIS will complete the review of the cited plants’ monitoring
                          of CCP’s and require changes at each plant to ensure they
                          meet regulatory requirements by July 30, 2005.

                   OIG Position. We concur with FSIS’ proposed corrective actions and have
                   accepted management decision for this recommendation.




USDA/OIG-A/24601-5-AT                                                                Page 22
Section 3.   FSIS Oversight of SSOPs Needs Improvement

                    FSIS oversight and verification over SSOP needs to be improved to make
                    certain that meat and poultry products are free from adulteration and
                    contamination. FSIS records, and our visual inspections, showed that plants
                    (1) did not have adequate SSOP procedures, (2) did not maintain proper
                    records to show that SSOP procedures were followed, and (3) had repetitive
                    noncompliance deficiencies that were not corrected. This occurred because
                    (1) FSIS inspectors did not verify the adequacy of the SSOP plans, (2) plant
                    management did not follow the SSOP plans, or (3) plant management did not
                    develop adequate corrective action to resolve noncompliances. Consequently,
                    there is reduced assurance that SSOPs implemented by the plants were
                    effective.

                    In the prior HACCP audit report (Audit No. 24001-3-At, dated June 2000,
                    Finding 11), we reported that at 6 of the 15 plants, the SSOP plans were
                    deficient. We recommended that FSIS ensure that inspectors routinely
                    evaluate the effectiveness of SSOPs, and require changes and modifications
                    to plants’ SSOP plans when needed. FSIS agreed to reinforce inspector’s
                    authorities in relation to the SSOPs through better communication and
                    training, national supervisory conferences, and work unit meetings.

                    During our review of FSIS and plant records, and visual inspection at the
                    15 very small plants, we found some of the same repetitive SSOP
                    noncompliances the inspectors and plant management found in the past. The
                    noncompliances included food particles left in machinery and equipment,
                    dripping condensation, flaking paint over product processing areas, improper
                    storage of product, and live rodents.

                    A sanitary environment is a basic prerequisite for preparing safe foods.
                    Following an established and effective SSOP is the most basic way to ensure
                    that a safe product is produced. FSIS inspectors are required to verify the
                    adequacy and effectiveness of the SSOP. We reviewed SSOPs at the
                    15 plants we visited and found that 10 of these plants contained deficiencies.



Finding 4           Plants’ SSOP Plans and Monitoring Records Were Inadequate

                    At 6 of the 15 plants, we found that SSOP plans or monitoring records were
                    inadequate. At 3 of these plants, SSOP plans did not address needed
                    sanitation operation procedures, specify the frequency of procedures, or have
                    suitable forms for recording deficiencies. Another three plants did not
                    adequately document their monitoring of these procedures. The inspectors
                    did not sufficiently review the SSOP plans before the plants put them into

USDA/OIG-A/24601-5-AT                                                                   Page 23
                   effect, or sufficiently review the plant’s monitoring records. The FSIS
                   inspectors overlooked performing tasks to review the SSOP plans or
                   monitoring records, and supervisory or other reviews did not identify these
                   deficiencies. (See Finding No. 1.) Without adequate procedures or
                   monitoring records, there were few assurances that plants were effective in
                   producing meat or poultry products in a sanitary environment.

                   Title 9, CFR 416.17 provides that FSIS shall verify the adequacy and
                   effectiveness of the SSOPs and the procedures specified therein by
                   determining that they meet the requirements of this part.

                   FSIS Directive 5000.1, chapter I, part XVII states, in part, that plants shall
                   maintain daily records sufficient to document the implementation and
                   monitoring of SSOPs and any corrective actions taken. The SSOP plans
                   require the plants to document their monitoring of the sanitation procedures
                   performed before and during the processing of the product. Properly
                   maintained monitoring records would indicate that the plant is following the
                   procedures, as outlined in the SSOP plan.

                   Details of inadequate SSOP procedures follow:

                   At plant A, the SSOP plan pre-operational procedures did not adequately
                   address the cleaning of surfaces, equipment, and utilities. The cleaning and
                   sanitizing procedure annotated in the SSOP procedure was “Remove heavy
                   meat pieces from equipment as much as possible.” This procedure was not
                   specific enough to meet regulations. The inspector had issued two NR’s
                   during the three months prior to our review involving the inadequate
                   pre-operational cleaning of equipment. Although plant management agreed to
                   clean the affected equipment, there was no corrective action to address the
                   SSOP procedures.

                   At plant I, the pre-operational inspection form did not provide for or instruct
                   the plant employees to monitor overhead structures and walls and did not
                   have entry spaces for preventive measures. The plant did not report any
                   deficiencies involving overhead structures and walls. However, the inspector
                   reported on NR 27-2003-2139, dated June 9, 2003, that the upper part of the
                   rails used to hold exposed product had a moderate to heavy buildup of flaking
                   and chipping paint. Exposed product was directly below this condition. The
                   plant responded to the NR by stating that the rails would be checked weekly
                   and flaking paint would be removed; however, the pre-operational inspection
                   form was not revised to show the stated preventive measure. Therefore, plant
                   management had no documentation to support that these reviews were
                   performed.




USDA/OIG-A/24601-5-AT                                                                   Page 24
                   At plant K, the SSOP plan did not specify the frequency of each SSOP
                   procedure. For example, the walk-in freezer is to be cleaned with approved
                   cleaning agents and rinsed with potable water. However, the SSOP plan does
                   not provide how often the freezer should be cleaned. There was no indication
                   as to how often the plant management cleaned the freezer.

                   During our review of NR’s written by FSIS inspectors at the 15 plants we
                   visited, we found that FSIS inspectors documented only 1 NR for inadequate
                   SSOP plans. One FSIS official stated that assessing SSOP plans is not a
                   scheduled task in PBIS and inspectors may have overlooked performing this
                   task on a regular basis. FSIS Directive 5000.1, part XII, states, in part, that
                   the plant is responsible for developing, maintaining, and implementing
                   written SSOPs, and the inspector performs procedures to verify that SSOPs
                   meet regulatory requirements. However, the Directive adds that the inspector
                   determines when it is necessary to perform this procedure.

                   Plants Are Not Maintaining Adequate SSOP Monitoring Records

                   Details of plants not maintaining adequate SSOP monitoring records follow:

                   Plant B did not properly maintain documentation for its recordkeeping
                   system for monitoring the SSOP. There were only 12 Operational Sanitation
                   of Facilities, Equipment, and Personal Hygiene forms on file for the
                   monitoring tasks performed each day between January 28, 2003, and
                   November 25, 2003. The documentation for the monitoring of tasks
                   performed on the other dates was missing. In addition, records do not identify
                   the corrective actions taken on deficiencies or whether any deficiencies were
                   corrected. Plant C did not identify the employees who were to maintain or
                   perform the SSOP procedures. Plant E did not have a log to document the
                   changes the plant made in its monitoring of the SSOPs.

Recommendation 8

                   Include a scheduled task in the PBIS system for assessing SSOP plans to
                   ensure this task is performed on a regular basis.

                   Agency Position. In its June 1, 2005, response, FSIS stated:

                        FSIS proposes an alternative approach in order to meet the
                        concern identified: Establish management controls to ensure that
                        SSOP plans are assessed on a regular basis.

                        FSIS Directive 5000.1 * * * addresses regular assessments for
                        SSOP plans. Regular SSOP plan reviews are also reinforced in
                        FSRE training. CSI perform PBIS Procedure 01A01 to verify that
                        an establishment’s written sanitation SSOP meet regulatory


USDA/OIG-A/24601-5-AT                                                                   Page 25
                        requirements. Establishments are required to have adequate
                        SSOP in place at the time inspection is granted. Thereafter, CSIs
                        may perform procedure 01A01 as needed to verify SSOPs and
                        any modifications to them. Inspection program personnel are
                        also instructed to review the SSOPs to become knowledgeable of
                        the plants’ written procedures each time they perform
                        verification procedures associated with SSOPs.

                        Additionally, FSIS has established under its Management Control
                        System * * * the control activity “SSOP-PBIS 01 and
                        02 Procedures,” as well as specific performance measures for
                        inspection program personnel to: (1) monitor the review of SSOP
                        plans, (2) ensure that all deficiencies are documented on a
                        noncompliance record and, (3) verify that an establishment has
                        made an appropriate response to the deficiencies noted. Specific
                        emphasis is placed on the verification of 9 CFR
                        416.4 requirements

                        Timeframe
                        FSIS will implement control activities for the IPPS to align them
                        with regular assessments of SSOP plans by September 30, 2005.

                   OIG Position. We cannot accept management decision for this
                   recommendation. FSIS Directive 5000.1, requiring inspectors to review
                   SSOP plans as needed, was in effect during our fieldwork but was not
                   adhered to by the inspectors. FSIS’ response regarding the Management
                   Control System was not specific enough to correct the cited deficiencies. In
                   addition, FSIS’ response to implement controls to align IPPS to assessments
                   of SSOP plans did not specifically address the cited deficiencies. FSIS needs
                   to implement specific controls to ensure that required reviews of SSOP plans
                   are conducted.



Finding 5          FSIS Continues to Issue Repetitive NR’s Without Requiring
                   Adequate Corrective Action or Taking Further Enforcement
                   Actions

                   Plants did not make effective changes in their SSOPs to reduce repetitive
                   deficiencies reported by FSIS inspectors and plant management. In 7 of the
                   15 plants, we found the same, or similar, SSOP deficiencies that were
                   previously documented in NR’s and plant’s preoperational and operational
                   inspection records. Plant management did not develop effective corrective
                   actions in their SSOP to eliminate the deficiencies. FSIS inspectors continued
                   to issue NR’s for the same deficiencies, without requiring adequate corrective
                   action, and did not implement further enforcement actions. The repeated

USDA/OIG-A/24601-5-AT                                                                  Page 26
                   deficiencies could result in contamination and adulteration of the meat and
                   poultry products and place consumers at risk.

                   The FMIA and PPIA both established that a meat or poultry product is
                   adulterated if it has “been prepared, packed, or held under unsanitary
                   conditions whereby it may become contaminated with filth, or whereby it
                   may have been rendered injurious to health.” When FSIS personnel inspect
                   the grounds, facilities, and equipment at meat and poultry plants they are
                   looking for these unsanitary conditions. Each time unsanitary conditions are
                   disclosed, inspectors are to document the noncompliance on the NR (FSIS
                   Form 5400.4).

                   FSIS Directive 5000.1, chapter IV, part 1 provides that the inspector should
                   describe each noncompliance in clear, concise terms, including the exact
                   problem, its location, and the effect on product. If there is a trend of
                   noncompliance developing, and the current NR is linked to previous NR’s,
                   the inspector should list the previous NR’s with the similar noncompliance
                   from the same cause. The NR should state which corrective actions were
                   proposed, and that these actions were ineffective or not implemented. If this
                   developing trend has been discussed with the plant management, this
                   information should also be documented on the NR form.

                   We found the following conditions:

                   At plant A, we observed a repetitive non-compliance condition in that a live
                   rat was on the plant’s floor. We pointed the rat out to a plant employee who
                   promptly trapped and killed it. We informed the inspector when he arrived
                   what had happened. The inspector immediately stopped production at the
                   plant based on instructions from the circuit supervisor. The inspector tagged
                   the plant and required plant management to examine all products, packages,
                   boxes, and containers and to have the plant exterminated, and determine how
                   the rodents were getting into the plant.

                   The next day, while conducting the exit conference, we noted another rat on a
                   light fixture. The circuit supervisor, who was also in the meeting, informed
                   the plant owner that the plant would remain closed until the rodent problem
                   was corrected.

                   Upon our visit, we reviewed the NR’s for this plant. FSIS inspectors
                   previously reported that the plant had rodent problems. The inspector issued
                   two NR’s during the current year citing rodent droppings and dead mice in
                   both cases. In the previous year, two other NR’s were issued for mice
                   infestation. The inspector’s records showed that neither the inspector’s
                   monitoring nor the plant’s corrective actions had resolved the rodent
                   problem.



USDA/OIG-A/24601-5-AT                                                                 Page 27
                   The inspector on duty at the plant had little experience as an inspector. He
                   completed his inspector’s training and reported to the plant just three months
                   prior to our visit. This was his first assignment.

                   We noted the following during our review of six other plants:

                                No. of    No. of
                                 NR’s    Repetitive
                     Plant                                            Conditions Disclosed
                                Issued     NR’s
                               in 2003    Issued
                                                      Repetitive NR’s were issued for unsanitary conditions
                                                      that included inadequate cleaning and monitoring
                                                      practices. Our walk-through at the plant disclosed some
                        F        77          7
                                                      of the same unsanitary conditions previously reported
                                                      by the inspectors. The inspectors previously issued six
                                                      similar NR’s during 2003.
                                                      Three NR’s were issued in calendar year 2003,
                                                      identifying meat particles that had been repeatedly left
                                                      in saws, drains, and floors. Our walk-through of the
                                                      plant disclosed fat residue on saws and tables, as
                        H        22          3
                                                      reported on previous occasions. We also observed
                                                      product on pallets on the loading dock being
                                                      surrounded by birds. The inspector had cited similar
                                                      conditions twice during 2003.
                                                      The inspector issued an NR for flaking paint on a
                                                      fixture in the processing area during our preoperational
                        I        22          4
                                                      review. The inspector had previously issued three
                                                      similar NR’s during 2003.
                                                      The inspector issued 10 NR’s identifying meat particles
                        J        28         10
                                                      being repeatedly left in saws, drains, and on floors.
                                                      The inspector issued NR’s related to meat particles on
                        K        28          4
                                                      equipment, utensils, and machinery.
                                                      The inspector issued NR’s identifying grease, mold,
                        N        35         10        and food particles located in the belts of equipment and
                                                      utensils.


Recommendation 9

                   Establish definitive guidelines to ensure that both short-term and permanent
                   corrective action is required and implemented when repetitive deficiencies
                   are found at plants, and take further enforcement actions on repetitive
                   deficiencies.

                   Agency Response. In its June 1, 2005, response, FSIS stated:

                             FSIS has already established official policy in the form of
                             FSIS Directive 5000.1 to verify corrective action. * * * As
                             evidenced by over 400 administrative actions taken within the

USDA/OIG-A/24601-5-AT                                                                               Page 28
                          last year, FSIS does implement further enforcement action on
                          violations of law including repetitive deficiencies. The
                          standard for determining that further enforcement action are
                          necessary is proof that product has been prepared, packed, or
                          held under unsanitary conditions whereby it may have become
                          contaminated with filth or whereby it may have been rendered
                          injurious to health. In-plant inspection program personnel,
                          frontline supervisors and District personnel all have a role in
                          this determination. Repeating deficiencies of a low hazard
                          nature that are acted upon at the time of occurrence do not
                          meet the burden identified above for further enforcement
                          action.

                          FSIS, as part of its Management Control System * * * has
                          established a performance measure associated with all
                          documented     noncompliance      records    that     requires
                          “100% verification of establishment’s responses to an NR.”

                   OIG Position. We cannot accept management decision of this
                   recommendation. FSIS Directive 5000.1 was in effect during our audit
                   review and did not resolve the deficiencies noted. In addition, the cited
                   performance measure in the Management Control System will only ensure
                   that the plant responds to an NR, not the adequacy of the response.




USDA/OIG-A/24601-5-AT                                                                  Page 29
Section 4.   FSIS Should Improve Guidance Over Inspector Activities

                     FSIS needed to provide additional guidance to inspectors over inspection
                     activities, specifically with the accuracy and reviews of plants’ profiles and
                     the timelines of corrective actions taken on NR’s. Because of incorrect plant
                     profiles and Pathogen Reduction Enforcement Program (PREP) eligibility
                     reports, FSIS inspectors did not perform sufficient sampling at 1 of the
                     15 plants, and at a second plant, plant profiles generated sampling tasks
                     which were not required at the plant. We also found that at 3 of the 15 plants,
                     plant management had not timely responded to NR’s to show corrective
                     actions were taken and/or adequate.



Finding 6            Improvements Needed in Codes on Plant Profiles

                     FSIS did not perform sufficient sampling at 1 of the 15 plants, and at a
                     second plant, sampling tasks were generated for inspectors that did not apply
                     to the plant. This occurred because FSIS officials were not ensuring that
                     accurate Inspection System Procedures (ISP) codes for FSIS sampling were
                     included in the plant profile. The inspectors overlooked performing a task to
                     review plant profiles at least annually or upon rotation, as required, or had not
                     adequately reviewed and updated an eligibility report to accurately reflect the
                     plants operations. As a result, a plant produced meat products without being
                     subjected to sufficient testing. Further, FSIS scheduled sampling tasks at a
                     plant that were not required at this plant.

                     Inspectors complete plant profiles that generate ISP codes that identify the
                     inspection tasks to be performed by inspection personnel. These codes are
                     part of FSIS’ PBIS. One component of PBIS schedules and generates ISP
                     codes that identify work to be performed by inspectors. The 05 series relates
                     to microbiological sampling, and in some instances the codes listed on the
                     plant profiles were not accurate based on the plant’s operation. ISP codes for
                     each plant were listed on the establishment/shift inspection procedure
                     worksheet (FSIS Form 5400-5). These codes were fed into FSIS’ PREP
                     database where Salmonella sampling units were selected. FSIS Directive
                     5400.5 states that “Inspection program personnel are to review the preprinted
                     FSIS Form 5400-5 for each establishment at least annually and upon rotation
                     to assure that there is a plan for every shift and that the plan accurately
                     reflects the operations that the establishment currently conducts during that
                     shift.”

                     Title 9 CFR 310.25(b) and 381.94(b) requires that plants that produce the
                     following raw meat products (steers/heifers, cows/bulls, ground beef, hogs,
                     broilers, ground chicken, ground turkey) are subject to the pathogen

USDA/OIG-A/24601-5-AT                                                                       Page 30
                   reduction performance standards for Salmonella. These standards provide a
                   direct measure of progress in controlling and reducing the most significant
                   hazards connected with raw meat and poultry products.

                   We found that the plant profile for one plant we visited should have shown
                   that it was subject to Salmonella testing. However, the ISP code was not
                   included in the plant profile worksheet to generate the task that instructed
                   inspection personnel to perform the Salmonella tests. Plant J produces ground
                   beef and the plant profile for the plant did not include the
                   05A03 code. This code specifies that inspectors are to collect samples from
                   applicable products for Salmonella testing. Our review of plant and FSIS
                   records and interviews with plant and inspection personnel disclosed that the
                   Salmonella testing was not performed at this plant.

                   At plant J, the inspector stated that the plant profile worksheet did not list the
                   ISP code requiring Salmonella testing. He said that he is responsible for two
                   other plants that grind beef and that Salmonella testing is performed at those
                   plants. He added that he did not know why the testing was not performed at
                   this plant, but he felt that there was no reason to perform testing at this plant
                   because it was well maintained and clean. He also said that he did not closely
                   review the plant profile for accuracy upon his rotation to this plant.

                   Plant F received and processed raw meat, mainly hamburger patties, but did
                   not conduct slaughter activities. The plant profile worksheet indicated that the
                   plant was subject to ISP code 05A01. This code was used in slaughter
                   facilities to verify that plants have written procedures in place for collecting
                   samples for E. coli testing and were following these procedures. Plant F was
                   not required to test for E. coli; therefore, this code should not have been
                   included in the plant’s profile. The FSIS inspector responsible for this plant
                   agreed that the profile should not list this code. The inspector added that the
                   plant profile was not reviewed for accuracy since they had assumed
                   responsibility for this plant approximately 3 months earlier because they
                   overlooked performing this task.

                   At the exit conference, FSIS officials stated that the plant profile is used for
                   testing of Listeria and Salmonella in RTE products, and for E. coli 0517:H7
                   in raw ground beef. However, they added that Salmonella testing for raw
                   meat products is driven by their PREP database, which is updated by an
                   eligibility report that is generated from the database and sent to the field for
                   verification. FSIS officials did not provide information on how the original
                   entries are entered into the PREP databases, or if the plant profile information
                   is used for this purpose.




USDA/OIG-A/24601-5-AT                                                                      Page 31
Recommendation 10

                    Review the testing deficiencies noted at the cited plants and determine the
                    causes of the deficiencies noted. Develop and implement guidance to ensure
                    that plant profiles and any other documents causing the deficiencies are
                    reviewed at least annually and upon rotation (within the first month).

                    Agency Response. In its June 1, 2005, response, FSIS stated:

                           Plant profiles do not determine microsampling scheduling for
                           Salmonella in raw products. Sample scheduling is based on
                           inspector input on eligibility reports. FSIS Directive 5400.5,
                           Inspection System Activities, implements a policy to ensure
                           that plant profiles are reviewed at least annually and upon
                           rotation (within the first month). * * *.

                           Timeframe
                           FSIS will complete the review and correct an identified
                           deficiencies by September 30, 2005.

                    OIG Position. We concur with FSIS’ proposed corrective actions and have
                    accepted management decision for this recommendation.



Finding 7           FSIS Inspectors Are Not Reviewing Open NR’s on a Daily Basis
                    to Ensure Prompt and Adequate Corrective Action

                    During our review of 15 plants, we found that 3 inspectors did not review
                    open NR’s on a daily basis, as required. Plant management did not respond to
                    the NR’s as to the corrective actions or further planned actions they would
                    take to bring the NR deficiencies into compliance in a timely manner. The
                    inspectors said that they did not timely follow up on the open NR’s because
                    they overlooked these reviews. Subsequent supervisory or other reviews also
                    did not identify these deficiencies. This condition was noted in a prior
                    HACCP audit report, dated June 2000, and remains unresolved. We also
                    found at one plant that the inspector had not written any NR’s in calendar
                    year 2003 because the inspector did not feel that writing NR’s was an
                    effective method of addressing problems at the plant. As a result, timely
                    actions may not have been taken on deficiencies that could result in
                    processing products that could be harmful to consumers.

                    In plants operating under HACCP, FSIS inspection personnel perform
                    inspection procedures to determine whether plants comply with regulatory
                    requirements. Each time the performance of a procedure results in a finding
                    of noncompliance with these regulatory requirements, inspection personnel

USDA/OIG-A/24601-5-AT                                                                  Page 32
                   document the finding on an NR (FSIS Form 5400.4). There are no specific
                   timeframes in place that instruct plant management to respond to NR’s.
                   However, FSIS Directive 5400-5 states that when an NR is issued, inspection
                   personnel should provide plant management with a copy of the NR (as soon
                   as possible or by the end of the tour of duty) and an opportunity to respond
                   either orally or in writing. FSIS Directive 5400.5, XI.A.2 states that until an
                   establishment has brought itself into compliance with the regulatory
                   requirement(s) that resulted in issuance of an FSIS Form 5400-4, the form is
                   “open.” Inspection program personnel are to review the file of “open” FSIS
                   Form 5400-4’s daily.

                   In the prior HACCP audit report (Audit No. 24001-3-At, dated June 2000,
                   Finding 14) we found that plants did not always promptly respond to NR’s or
                   take timely corrective actions. We also found numerous repetitive critical
                   deficiencies with the same cause, where permanent corrective actions had not
                   been taken or enforcement actions initiated. We recommended that FSIS
                   develop and implement progressive enforcement procedures that establish
                   specific parameters for repetitive deficiencies and provide a basis for
                   determining when corrective actions are inadequate and when enforcement
                   actions should be promptly initiated. Also, we recommended that FSIS
                   establish timeframe requirements for responding to NR’s and initiating
                   planned corrective actions. FSIS replied that it did not find it advisable to
                   establish specific timeframes. FSIS believed its current regulations hold
                   plants accountable for initiating and implementing corrective actions. FSIS
                   did not agree to add timeframes for responding to NR’s, but it agreed to
                   reinforce inspection personnel responsibilities for monitoring and evaluating
                   corrective actions.

                   Details of our current observations follow:

                   At plant A, the plant management did not timely respond to 3 of the 12 NR’s
                   issued during our audit period (Nos. 4-2003-48, 9-2003-4485, and
                   10-2003-4485). Plant management had not responded to two of the NR’s
                   (over 45 days) when we left the plant, and it took plant management over
                   30 days to respond to the other NR. The inspector said that the NR’s were not
                   immediately responded to because he forgot to follow up on, and track, the
                   open NR’s.

                   NR No. 4-2003-48 described numerous sanitation deficiencies in the
                   Description of Noncompliance Section; it described that a chill cabinet in the
                   kitchen was in need of repair and had some old residue. The plant’s
                   immediate action was to correct the noted sanitation deficiencies. The
                   packaging operation line was stopped until employees cleaned the area.
                   Management replied that it would do its best to take care of the deficiencies
                   and make sure they did not happen again. They added the chilling cabinet
                   would be fixed but did not show a target date. Plant management did not


USDA/OIG-A/24601-5-AT                                                                   Page 33
                   respond to the NR until 31 days later. However, the inspector did not
                   subsequently sign the NR showing that he approved the corrective actions
                   taken by plant management.

                   The other two NR’s were as follows:

                        Date                     Deficiency                           Plant Action
                    October 17,    NR Record No. 9-2003-4485 reported          The NR was still open as of
                    2003           that (1) The inspector had not seen         December 1, 2003, and no
                                   evidence of any environmental or            corrective actions had been
                                   product testing or trends, (2) Ready-To-    documented.
                                   Eat    product      was     not    easily
                                   distinguished, (3) Ready-To-Eat and
                                   Not Ready-To-Eat had similar, if not
                                   identical cooking instructions, (4) the
                                   plant layout was not clearly defined,
                                   and (5) raw traffic and cooked traffic
                                   were not clearly defined.
                    October 31,    NR Record No. 10-2003-4485 reported         The NR did not show a
                    2003           that the inspector reviewed the plant’s     response       from    plant
                                   HACCP plan for the weekly calibration       management. The NR was
                                   of thermometers and noted that the last     still open as of December 3,
                                   entry on the form was made on               2003, and no corrective
                                   September 22, 2003. The inspector           actions        had     been
                                   noted that this was a 5-week period         documented.
                                   where no thermometer checks were
                                   performed or recorded.


                   The inspector documented that he informed plant management in writing and
                   verbally of the deficiencies. He said that he did not follow up on the three
                   open NR’s because of his lack of knowledge due to his having been only
                   recently hired as an inspector.

                   At plant B, plant management had not timely responded to five of the nine
                   NR’s written by the inspector. These NR’s were still open at the time of our
                   review on December 10, 2003. There were no indications that corrective
                   actions were taken on any of the deficiencies. The five NR’s are listed below:

                        Date        NR Number                              Deficiency
                    September 3,   4-2003-3407       The NR reported that the inspector observed a hog
                    2003                             carcass in the freezer without markings. The carcass
                                                     should have been marked “Not For Sale.”




USDA/OIG-A/24601-5-AT                                                                                Page 34
                         Date       NR Number                          Deficiency
                     October 1,    5-2003-3407    The NR reported that the inspector observed the
                     2003                         owner wipe down water that had splashed on the
                                                  ceiling and rail from the legging area to the carcass
                                                  wash area after the preoperational inspection and did
                                                  not record on the sanitation record the corrective
                                                  actions taken. The inspector said that plant
                                                  management should record any corrective actions
                                                  taken as a result of the preoperational sanitation
                                                  inspection.
                     October 17,   6-2003-3404    The NR reported that the inspector observed
                     2003                         condensation dripping from the refrigeration unit in
                                                  the carcass cooler. No adulteration was detected. The
                                                  inspector reported that he observed the same condition
                                                  days prior and reported that corrective action given by
                                                  plant management at the time was ineffective.
                     November 4,   7-2003-3314    The NR reported that the inspector observed the SSOP
                     2003                         preoperational inspection log form being re-used 3 or
                                                  4 times and the results were not always entered.
                     November 6,   8-2003-3314    The NR reported that the inspector noticed that the
                     2003                         ceiling of the door entrance that connected the kill
                                                  floor to the edible room was crumbling when touched.


                    The inspector at plant O did not write any NR’s during calendar year 2003.
                    The inspector at this plant said that writing NR’s would not improve on how
                    well the plant manages its HACCP plans. He added that he found some
                    noncompliances and orally told them to plant management who then
                    immediately took appropriate corrective action. He said that he did not see
                    the need to write NR’s in such cases. The supervisory veterinarian medical
                    officer, acting for the circuit supervisor, said that NR’s should be written to
                    document all noncompliances.

                    FSIS officials stated that plants are not currently required to respond to NR’s;
                    that plants are only required to respond to regulatory deficiencies in a timely
                    manner. FSIS needs to improve controls to ensure that ongoing deficiencies
                    are corrected and documented in a timely manner.

Recommendation 11

                    Establish and implement policies to assure that inspectors timely monitor
                    plants’ corrective actions to NR’s and document NR’s when the plant
                    management has taken appropriate actions to address the noted deficiencies.

                    Agency Response. In its June 1, 2005, response, FSIS stated:

                           FSIS Directive 5000.1 defines procedures to verify compliance
                           with regulations 417.3, 416.15, and the sanitation
                           performance standards. Although it is the plant’s

USDA/OIG-A/24601-5-AT                                                                           Page 35
                           responsibility to respond to a noncompliance, FSIS, as part of
                           its Management Control System, has established a
                           performance measure associated with all documented
                           noncompliances that requires “100% verification of
                           establishment’s responses to an NR.” This system ensures that
                           inspectors timely verify plants’ corrective actions to NR’s and
                           document NR’s when the plant management has not taken
                           appropriate actions to address the noted deficiencies.

                           Timeframe
                           FSIS will implement control activities for the IPPS to align
                           them with key food safety and food security functions by
                           September 30, 2005.

                    OIG Position. We concur with FSIS’ proposed corrective actions and have
                    accepted management decision for this recommendation.

Recommendation 12

                    Require district or supervisory personnel to conduct trend analysis and
                    review of the timeliness of NR’s under their purview.

                    Agency Response. In its June 1, 2005, response, FSIS stated:

                           District Analysts’ responsibilities include trend analysis of
                           establishment compliance with regulatory requirements. The
                           District Analyst position was established in July 2004. The
                           position description * * * [has been] provided * * *.
                           Verification of corrective action including timeliness is a
                           performance expectation for Public Health Veterinarians and
                           CSI that is assessed as part of the performance of IPPS.

                    OIG Position. We concur with FSIS’ proposed corrective actions and have
                    accepted management decision for this recommendation.

Recommendation 13

                    Direct the cited inspector at plant O to document instances of noncompliance
                    so that a written history is developed for all noncompliance, and corrective
                    actions taken on the noncompliance. Also, FSIS should implement
                    supervisory oversight sufficient to ensure the cited inspector is properly
                    performing inspection duties.




USDA/OIG-A/24601-5-AT                                                                   Page 36
                   Agency Response. In its June 1, 2005, response, FSIS stated:

                         FSIS, as part of its Management Control System, has
                         established a performance measure associated with all
                         documented noncompliances that requires “100% verification
                         of establishment’s responses to an NR.”

                         FSIS is revising IPPS to align it with key food safety and food
                         security functions of the Management Control System. FSIS
                         will conduct IPPS Reviews to hold supervisors accountable
                         for specific levels of performance through IPPS reviews.
                         Performance measures for the key food safety and food
                         security functions have been established and will be monitored
                         by senior managers through the use of an automated
                         database.

                         Additionally, FSIS will direct the cited inspector at plant O to
                         document instances of noncompliance so that a written history
                         is developed for all noncompliance, and corrective actions are
                         taken on the noncompliance.

                         Timeframe
                         FSIS will review all instances of noncompliance at plant O
                         and ensure that necessary corrective actions are taken by
                         September 30, 2005.

                   OIG Position. We concur with FSIS’ proposed corrective actions and have
                   accepted management decision for this recommendation.




USDA/OIG-A/24601-5-AT                                                                 Page 37
Section 5.   FSIS and Plant Management Need to Place Greater Emphasis on Plant
             Security

Finding 8           Plant Security Measures Need Improvement

                    During our review of the 15 plants, we found that none of them had
                    developed or implemented formal security plans. FSIS has issued and
                    distributed security guidelines to meat and poultry processing plants, but has
                    not mandated required procedures that plants must implement. A failure to
                    provide adequate security over meat and poultry products could result in
                    accidental or intentional contamination of the food supply.

                    Since the terrorist attacks on September 11, 2001, there is increased concern
                    regarding the security and safety of our nation’s food supply. It is believed
                    that terrorists could attempt to attack our nation by introducing chemical or
                    biological agents into the food supply system. Meat and poultry processing
                    plants are one point of entry at which terrorists could access the system. A
                    publication issued by the World Health Organization stated that a terrorist
                    attack aimed at our food supply system is a real and current threat.

                    One of the most concerted efforts made by FSIS to ensure a safe food supply
                    was the implementation of FSIS Directive 5420.1, “Homeland Security
                    Threat Condition Response – Food Security Monitoring Procedures.” The
                    directive provides inspectors with specific tasks to perform based upon
                    heightened threat conditions as issued by the Department of Homeland
                    Security. These actions are substituted in place of regular scheduled tasks,
                    and provide inspectors with tasks aimed directly at ensuring that there are no
                    breaches in the security of a plant that could lead to threatening conditions.

                    Along with this directive, FSIS issued “FSIS Security Guidelines for Food
                    Processors.” These guidelines were provided to meat and poultry plants. The
                    suggestions made in this publication were not mandated by FSIS, but offered
                    some guidance for processors who wanted to take a proactive approach to
                    food safety.

                    Examples of suggestions made to the plants were:

                    •      Identify a food security management team and a food security
                           management coordinator.

                    •      Develop and implement a food security plan using established risk
                           management principles.

                    •      Conduct regular food security inspections of the facility.


USDA/OIG-A/24601-5-AT                                                                   Page 38
                   •      Post “No Trespassing” signs at the plant boundaries.

                   •      Restrict access to production and holding areas to plant employees
                          and FSIS personnel.

                   In February 2003, GAO issued a report (Report No. GAO-03-342) on Food-
                   Processing Security: Voluntary Efforts Are Under Way, but Federal Agencies
                   Cannot Fully Assess Their Implementation. This report details how existing
                   food safety statutes do not specifically authorize the Food and Drug
                   Administration or the U.S. Department of Agriculture (USDA) to require
                   food processors to implement any type of security measures designed to
                   prevent the intentional contamination of the food they produce. USDA’s
                   general counsel did conclude that to the extent that security precautions
                   pertain to activities closely related to sanitary conditions in the food
                   preparation process, FSIS has the authority to require food processors to
                   implement certain security measures. The general counsel concluded that
                   FSIS could require facilities to develop and maintain a food security
                   management plan concerning their response to an actual threat involving
                   product tampering, since this is directly related to food adulteration.

                   In our review of very small plants, we evaluated the level of security
                   employed at each of the plants. Our goal was to determine what additional
                   security measures, if any, the plants and FSIS had implemented since the
                   attacks. Based on our review of procedures, FSIS had not imposed any
                   requirements on plants to develop and implement formal security plans and
                   procedures.

                   We requested the security procedures at the 15 very small plants we visited
                   and found that none had developed or implemented a formal security plan.
                   We questioned plant managers about their security procedures and some of
                   them said that they have a heightened awareness of security issues, but had
                   not developed a formal plan.

                   At 8 of the 15 plants, plant management had implemented at least one
                   effective security measure. Five plants secured plant entrances at all times.
                   Three of these plants, along with three others, are secured by fences. Of the
                   five plants with secured plant entrances, two plants also had signs posted
                   prohibiting trespassers; and one plant was using security cameras. The
                   general manager at plant C stated that he was in the process of developing a
                   security plan that would include security cameras and security guards
                   positioned at the entrances. He hoped to have this plan implemented next
                   year. None of the plants we visited were using security guards or dogs (see
                   exhibit C).




USDA/OIG-A/24601-5-AT                                                                 Page 39
                   During our visit we observed the security practices of the plants and found
                   these vulnerabilities:

                   •        The main receiving door at plant F was left opened and unattended for
                            extended periods of time.

                   •        Unprocessed product was left unattended on the loading dock at plant
                            H, and could have been accessed by anyone.




                   Figure 1 - OIG photo of product left on dock at plant H.

                   Based on our review of FSIS and plant security practices, FSIS has made
                   valuable recommendations to plants; however, they did not require plants to
                   implement these recommendations. We understand that FSIS’ security
                   guidelines must be weighted against the cost/benefit of the plants’ production
                   processes; however, FSIS should establish minimum security requirements
                   that plants must meet to more adequately protect our food supply.

                   FSIS recently revised Directive 5420.1 in January 2005 to include specific
                   procedures for inspectors to perform when a threat condition of yellow,
                   orange, or red is declared by the Department of Homeland Security, even
                   when a specific food safety threat was not made. While we acknowledge
                   FSIS’ proactive measures in this area, we continue to assert that plants should
                   be required to develop and implement written security plans to prevent
                   deliberate product adulteration.




USDA/OIG-A/24601-5-AT                                                                   Page 40
Recommendation 14

                    Establish minimum security requirements for plants that include a written
                    security plan and actions to prevent deliberate product adulteration.

                    Agency Response. In its June 1, 2005, response, FSIS stated:

                           A proposed rule that would mandate food security plans in all
                           official establishments and provide for special verification
                           activity by FSIS during a heightened food threat event is on
                           FSIS’ regulatory agenda. Meanwhile, FSIS is encouraging
                           voluntary development of food security plans. To assist
                           establishments,    especially   small   and very        small
                           establishments, in developing food security plans, FSIS will
                           conduct a series of training workshops throughout the nation
                           by May, June, and July 2005. The workshops will assist plants
                           with food security awareness and in the development of their
                           food security plans. Tools such as the Model Food Security
                           Plans, FSIS Industry Self-Assessment Checklist for Food
                           Security, and FSIS Directive 5420.1, Revision 1, Food
                           Security Verification Procedures * * * will be addressed
                           during the workshops.

                    OIG Position. We cannot accept management decision for this
                    recommendation. FSIS officials state that a proposed rule mandating food
                    security plans is on their regulatory agenda, however, no estimate timeframes
                    were given for when this action will be pursued and completed. To accept
                    management decision for this recommendation, we will need estimated
                    timeframes for implementing the proposed rule.




USDA/OIG-A/24601-5-AT                                                                  Page 41
Scope and Methodology
                   OIG performed the audit work at the FSIS national Office in Washington,
                   D.C.; three district offices (Albany, New York; Atlanta, Georgia; and
                   Philadelphia, Pennsylvania); and 15 plants located in Connecticut, Florida,
                   Georgia, Massachusetts, New Jersey, New York, Pennsylvania, and Rhode
                   Island (see exhibit A). The plants visited included 14 plants that processed
                   meat products and 2 plants that slaughter livestock (1 of these 2 plants also
                   processed meat products). We reviewed FSIS policies and procedures at the
                   national and district offices visited. Our reviews at the plant locations
                   included evaluations of the plants’ written SSOPs, HACCP plans, pathogen
                   testing procedures, and responses to FSIS NR’s. Our evaluation of HACCP
                   plans included an indepth review of all plans in effect at the 15 plants visited
                   (see exhibit A). We also toured the plant locations and observed plant
                   operations, including operational cleanup procedures and monitoring
                   activities at the designated CCP’s. We judgmentally selected the districts and
                   plants to be visited. In selecting the sites to be reviewed, we attempted to
                   obtain a variety of operations by selecting plants that FSIS records showed
                   were both problem plants and ones that were operating satisfactorily. In
                   making our selections we considered the number of noncompliances cited by
                   inspectors, assigned tasks not performed, animals slaughtered, products
                   processed, and geographical areas.

                   Fieldwork was conducted during the period October 2003 through July 2004.
                   We conducted this audit in accordance with Government Auditing Standards.

                   To accomplish our audit objectives, we performed the following fieldwork.

                   •      We analyzed documents and conducted interviews with FSIS
                          Headquarters officials, district office officials, inspectors, and plant
                          management.

                   •      We reviewed FSIS’ regulations, instructions, procedures, studies,
                          published reports, media releases, FSA, IPPS reviews, E. coli
                          reassessments, and GAO audits.

                   •      We conducted site visits to the FSIS national Office, district offices,
                          and industry plants for review and analysis.




USDA/OIG-A/24601-5-AT                                                                    Page 42
Exhibit A – Plants Selected for Review
                                                             Exhibit A - Page 1 of 1



           District Number 60 – Philadelphia, Pennsylvania
           Plant A                 Pennsylvania
           Plant B                 New Jersey
           Plant C                 New Jersey
           Plant D                 Pennsylvania
           Plant E                 Pennsylvania

           District Number 65 – Albany, New York
           Plant F                 New York
           Plant G                 New York
           Plant H                 Connecticut
           Plant I                 Massachusetts
           Plant J                 Rhode Island

           District Number 85 – Atlanta, Georgia
           Plant K                 Georgia
           Plant L                 Georgia
           Plant M                 Florida
           Plant N                 Florida
           Plant O                 Florida




USDA/OIG-A/24601-5-AT                                                  Page 43
Exhibit B – Number of HACCP Plans Reviewed
                                                                        Exhibit B - Page 1 of 1



                                                           Number of
                            HACCP Category                HACCP Plans
                                                           Reviewed

       Raw - Ground                                            9


       Raw - Not Ground                                       10


       Thermally Processed - Commercially Sterile              0


       Not Heat Treated - Shelf Stable                         0


       Heat Treated - Shelf Stable                             3


       Fully Cooked - Not Shelf Stable                         9


       Heat Treated not Fully Cooked - Not Shelf Stable        3


       Secondary Inhibitors - Not Shelf Stable                 0


       Slaughter                                               2


       Total                                                  36




USDA/OIG-A/24601-5-AT                                                             Page 44
Exhibit C – Security Measures at Very Small Plants
                                                                        Exhibit C - Page 1 of 1


                                                             Signs
        Formal    Secured Security   Fences/   Security                    Guard
Plant                                                     Prohibiting
         Plan      Doors Cameras      Gates    Guards                      Dogs
                                                          Trespassers
 A                  X                  X
 B
 C                                     X
 D
 E
 F                                     X
 G
 H
 I
 J                  X                  X                      X
 K                  X
 L                  X
 M                                     X
 N                  X        X         X                      X
 O




USDA/OIG-A/24601-5-AT                                                             Page 45
Exhibit D – Agency Response
                              Exhibit D - Page 1 of 10




USDA/OIG-A/24601-5-AT                    Page 46
Exhibit D – Agency Response
                              Exhibit D - Page 2 of 10




USDA/OIG-A/24601-5-AT                    Page 47
Exhibit D – Agency Response
                              Exhibit D - Page 3 of 10




USDA/OIG-A/24601-5-AT                    Page 48
Exhibit D – Agency Response
                              Exhibit D - Page 4 of 10




USDA/OIG-A/24601-5-AT                    Page 49
Exhibit D – Agency Response
                              Exhibit D - Page 5 of 10




USDA/OIG-A/24601-5-AT                    Page 50
Exhibit D – Agency Response
                              Exhibit D - Page 6 of 10




USDA/OIG-A/24601-5-AT                    Page 51
Exhibit D – Agency Response
                              Exhibit D - Page 7 of 10




USDA/OIG-A/24601-5-AT                    Page 52
Exhibit D – Agency Response
                              Exhibit D - Page 8 of 10




USDA/OIG-A/24601-5-AT                    Page 53
Exhibit D – Agency Response
                              Exhibit D - Page 9 of 10




USDA/OIG-A/24601-5-AT                    Page 54
Exhibit D – Agency Response
                              Exhibit D - Page 10 of 10




USDA/OIG-A/24601-5-AT                     Page 55
Informational copies of this report have been distributed to:

Administrator, FSIS (20)
       ATTN: Agency Liaison Officer
Government Accountability Office (1)
Office of Management and Budget (1)
Office of the Chief Financial Officer (1)
       Director, Planning and Accountability Division
